<html>
<title> - SEX OFFENDER NOTIFICATION AND REGISTRATION ACT (SORNA): BARRIERS TO TIMELY COMPLIANCE BY STATES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  SEX OFFENDER NOTIFICATION AND REGISTRATION ACT (SORNA): BARRIERS TO 
                      TIMELY COMPLIANCE BY STATES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2009

                               __________

                           Serial No. 111-21

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
47-923                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
LUIS V. GUTIERREZ, Illinois          JASON CHAFFETZ, Utah
BRAD SHERMAN, California             TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              J. RANDY FORBES, Virginia
SHEILA JACKSON LEE, Texas            TOM ROONEY, Florida
MAXINE WATERS, California            BOB GOODLATTE, Virginia
STEVE COHEN, Tennessee               DANIEL E. LUNGREN, California
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 10, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    40
The Honorable Pedro Pierluisi, a Representative in Congress from 
  Puerto Rico, and Member, Subcommittee on Crime, Terrorism, and 
  Homeland Security..............................................    42
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.    43
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    44

                               WITNESSES

Ms. Laura Rogers, previous Director of the Department of Justice 
  SMART Office, Washington, DC
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Ms. Emma J. Devillier, Assistant Attorney General, Criminal 
  Division, Office of the Attorney General of Louisiana, Chief, 
  Sexual Predator Unit, Baton Rouge, LA
  Oral Testimony.................................................    52
  Prepared Statement.............................................    54
Ms. Madeline M. Carter, Principal, Center for Sex Offender 
  Management, Center for Effective Public Policy, Silver Spring, 
  MD
  Oral Testimony.................................................    59
  Prepared Statement.............................................    61
Mr. Ernie Allen, President and Chief Executive Officer, National 
  Center for Missing and Exploited Children, Alexandria, VA
  Oral Testimony.................................................    74
  Prepared Statement.............................................    77
Mr. Mark Lunsford, father of Jessica Lunsford, the victim of a 
  sex offense and murder, Homasassa, FL
  Oral Testimony.................................................    86
  Prepared Statement.............................................    87
Mr. Robert Shilling, Detective, Seattle Police Department, Sex 
  and Kidnapping Offender Detail, Sexual Assault and Child Abuse 
  Unit, Seattle, WA
  Oral Testimony.................................................    89
  Prepared Statement.............................................    90
Ms. Amy Borror, Public Information Officer, Office of the Ohio 
  Public Defender, Columbus, OH
  Oral Testimony.................................................   104
  Prepared Statement.............................................   107

                                APPENDIX

Material Submitted for the Hearing Record........................   145


  SEX OFFENDER NOTIFICATION AND REGISTRATION ACT (SORNA): BARRIERS TO 
                      TIMELY COMPLIANCE BY STATES

                              ----------                              


                        TUESDAY, MARCH 10, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Perluisi, Jackson Lee, 
Gohmert, Poe, Smith, and Rooney.
    Staff Present: Bobby Vassar, Minority Chief Counsel; Ameer 
Gopalani, Majority Counsel; Mario Dispenza, Fellow, ATF 
Detailee; Karen Wilkinson, Fellow, Federal Public Defender 
Office Detailee; Jesselyn McCurdy, Majority Counsel; Veronica 
Eligan, Majority Professional Staff Member; Caroline Lynch, 
Minority Counsel; and Kimani Little, Minority Counsel.
    Mr. Scott. The Subcommittee will now come to order.
    I am pleased to welcome you today.
    First of all, I want to apologize for being late. We had 
votes that we just completed, but I am pleased to welcome you 
here today to the hearing before the Subcommittee on Crime, 
Terrorism, and Homeland Security on ``Sex Offender Registration 
and Notification Act: Barriers to Timely Compliance by 
States.''
    In 2006, Congress passed the Adam Walsh Act, which included 
the Sex Offenders Registration and Notification Act, known as 
SORNA. That set forth a uniform national registration and 
notification system for sex offenders that required States, 
tribes, the District of Columbia, and U.S. territories to 
comply with its mandates by July 27, 2009, or lose 10 percent 
of its Byrne Grant money.
    With less than 4.5 months ago, not a single State, tribe, 
territory or the District of Columbia has been found to be in 
compliance with the provisions of SORNA. According to the 
Office of Inspector General, it is unlikely the jurisdictions 
will fulfill their requirements by July. The reasons for this 
situation appear to be many, but one thing is clear: Everyone 
has the same goal in mind, protecting the children and 
communities. There may be differences of opinion on how best to 
do that, but we all agree that protection must be a priority.
    The purpose of this hearing is to learn more about why no 
one has been found to have met the requirements of SORNA and to 
determine whether congressional action is needed. The immediate 
question before us is whether Congress needs to extend the 
current deadline of July 27. Many States, organizations and 
individuals, including some of the witnesses here before us 
today, are urging us to do so, and hopefully, the information 
received today will help us answer this question.
    There are several issues that I hope our witnesses will 
help us address. One is the fact that SORNA requires juveniles 
as young as 14 to be placed on a public registry. This applies 
not only to juveniles who are tried as adults but also to those 
who are merely adjudicated of certain sex offenses in juvenile 
courts. Inclusion in the public registry is mandatory, even 
when the juvenile court judge does not believe it is 
appropriate. This requirement is contrary to our traditional 
criminal practice in treating juveniles differently from adults 
and focusing on their rehabilitation. Juvenile sex offenders 
have a low recidivism rate. In Virginia, data collected in 2006 
found that none of the juvenile sex offenders released in 2005 
had been re-arrested for a sex offense.
    There are many groups and States that are urging Congress 
to change how SORNA treats juveniles. I would like to hear 
about any studies that address whether the mandatory inclusion 
of such juveniles in a public registry furthers our purpose of 
community safety and the effect that that inclusion has on the 
rehabilitation of juveniles.
    The juvenile adjudication procedures do not provide the 
same procedural protections as adult courts. For example, 
juveniles are not entitled to a jury trial, and placing 
juveniles adjudicated in sex offenses under the same 
registration and notification system as adults may raise 
constitutional questions, particularly when SORNA is applied 
retroactively. I am interested in learning of the legal 
challenges that have been made to this aspect of SORNA and the 
results of those challenges. I am looking toward to that 
statement also.
    SORNA classifies sex offenses into three categories. 
Depending on the nature of the offense, these classifications 
are critical because they determine what registration and 
notification procedures are required for the sex offender. 
Under the offense-based classification, the only consideration 
is the code section of the underlying offense. There appears to 
be a difference of opinion regarding whether SORNA's offense-
based classification is the best way to go. Some have argued 
that a classification system based on individual risk 
assessment provides greater protection to communities, and we 
would like to hear what people have to say about that.
    SORNA also applies to certain tribes. The National Congress 
of American Indians, which represents 250 tribes as members, 
has called upon Congress to amend SORNA. Their concerns focus 
on tribal sovereignty and the delegation of Federal law 
enforcement authority to States when no such delegation exists 
in other areas of law, and there is the lack of funding. We 
need to consider those concerns.
    Now, there have been legal challenges to the constitution 
of SORNA that either have or may have the impact on the ability 
of States and others to comply with their requirements. We need 
to know about these challenges. It is certainly unfair to 
punish a State whose court has prevented it from implementing 
SORNA. If certain portions of SORNA have been found to be 
unconstitutional by courts, we need to know so we can address 
that problem.
    As States approach the deadline for implementation, some 
are looking hard at the cost of implementation. Some have 
estimated that it will cost California at least $37 million to 
implement SORNA, and the Byrne Grant it might lose if it does 
not implement SORNA will be approximately $2 million. In my 
home State of Virginia, the implementation of SORNA has been 
estimated to cost about $12 million while the loss of Byrne 
Grant money would be only $400,000. So I have been told that, 
after implementation, it will cost Virginia nearly $9 million a 
year just to maintain compliance.
    In addition to these implementation and operational costs, 
there are costs of litigation. For example, the State of Nevada 
passed a new sex offender registration law in an attempt to 
comply with SORNA. The constitutionality of these laws was 
challenged in court. The Federal District Court found that 
these new State laws, which were retroactive, violated the ex 
post facto, double jeopardy, due process, and Contract Clauses 
of the Constitution and permanently enjoined Nevada from 
enforcing its laws. Other courts have held the application of 
SORNA to offenders who cross State lines before this law's 
enactment violates the ex post facto clause.
    At least six Federal District Courts have found SORNA to be 
unconstitutional on the grounds that Congress exceeded its 
authority under the Commerce Clause. No doubt these cases will 
be appealed. There are but a few examples of the hundreds of 
legal challenges that have been made in both State and Federal 
courts. These litigation costs have yet to be quantified.
    So, finally, the question is: How effective is SORNA in 
protecting our children and communities? Do we increase safety 
by requiring States to change their current registry system? 
What does the research show? Even in today's economy, we will 
pay whatever it takes to protect our children and communities 
from these crimes, but we have to be sure that we are getting 
the best protection possible for the money the we spend.
    I am looking forward to hearing from all of our experts in 
this area and to working together to ensure that we develop the 
best approach for ensuring safe communities.
    I know that there are many people who wanted to be heard 
today but who could not be accommodated because of time and 
space limitations on the panel. We hope to continue this 
dialogue in the future and to provide all who wish to make 
statements an opportunity to be heard.
    To this end, several organizations and individuals, 
including the American Bar Association; the National Congress 
of American Indians; the Professional Advisory Board to the 
Coalition of a Useful Registry; Beata Roberts; Laurie Peterson; 
Charles McGonagle; the Association for the Treatment of Sex 
Abusers; and the Mid-Atlantic Juvenile Defender Center have 
submitted written statements, or transcripts, for the record. 
And without objection, these will be included in the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Scott. It is now my pleasure to recognize the Ranking 
Member of the Subcommittee, the gentleman from Texas, Judge 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    In 2006, Congress passed the Adam Walsh Act to protect the 
public, particularly children, from sexual predators. The Adam 
Walsh Act included the Sex Offender Registration and 
Notification Act, or SORNA, which was enacted to create a 
consistent and uniformed system of sex offender registries 
throughout the country. This system would enable law 
enforcement officials and the public to better track sex 
offenders. SORNA would also prevent offenders from eluding the 
authorities, especially when they move out of State.
    The deadline for compliance by the States with SORNA is 
July 27, 2009. The act directed the Department of Justice to 
certify that States are compliant with SORNA, but it allows the 
Office of Sex Offender Sentencing, Monitoring, Apprehending, 
Registering, and Tracking--or SMART Office--to give States up 
to two 1-year extensions to comply upon request. To date, no 
State has been certified as SORNA-compliant, but a number of 
States have requested an extension.
    If a State does not comply with SORNA, the Department of 
Justice may penalize the State by eliminating 10 percent of the 
award of any Byrne JAG crime prevention grants for which the 
State may be eligible. Regarding the cost, some States have 
calculated that losing a portion of their Byrne JAG funds would 
be far less expensive than meeting SORNA's requirements, just 
as the Chairman mentioned.
    However, considering that Congress has appropriated now 
$2.225 billion in Byrne JAG funding for this year, compared 
with last year's amount of $374 million, I would hope that many 
State officials are rethinking that position. Clearly, this 
huge increase of funding will do more to offset the cost of the 
State implementation of SORNA.
    Some States take issue with SORNA's offense-based approach 
of categorizing sex offenders by their crimes and requiring 
individuals who committed similar crimes to have similar 
registration obligations. These States advocate a risk-
assessment approach to registration that utilizes actuarial 
tools to predict recidivism by taking an individual's criminal 
history, victim profile, and age into account.
    However, there is little consistency to these various 
programs. They are not uniform in the criteria they apply or in 
who performs the assessments. This creates discrepancies over 
which sex offenders should be tracked nationwide.
    Despite these discrepancies, risk-assessment States allege 
their approach is better than SORNA's offense-based approach. 
Washington State uses the risk-assessment approach, but it 
cannot properly track Darrin Sanford, a convicted sex offender 
with a history of failure in registering as a sex offender. 
Sanford had been identified as a person with a high likelihood 
to re-offend, so much so that he was forced to wear a GPS 
tracking device. Although Mr. Sanford was under Washington's 
highest level of supervision, this did not stop him from 
assaulting and killing a 13-year-old girl in Walla Walla last 
month, a crime that he confessed to committing.
    Until there is some uniformity to these risk-assessment 
programs and they demonstrate a better track record, the most 
reliable approach is to track offenders by offense and to lock 
those up who fail to register.
    Some States and advocates claim that SORNA should not 
require that States register juveniles because they are more 
amenable to treatment and are therefore less likely than adults 
to become recidivists. I have great sympathy for that position. 
However, SORNA does not track all juveniles but only those who 
were tried as adults because of the severity of their offenses 
or juveniles who were adjudicated delinquent for a sex offense 
that involved the use of force, serious bodily harm or involved 
a victim who was drugged or under the age of 12.
    A number of lawsuits have challenged the constitutionality 
of SORNA, as the Chairman mentioned. At least 18 Federal trial 
court judges have upheld SORNA, while three others have found 
it violated the Commerce Clause. However, the 12 Federal 
Appellate Circuits, three of them--the 7th, 8th and 10th--have 
addressed the Commerce Clause issue, and all have upheld the 
statute. At this point, the courts have determined that SORNA 
is constitutional. The suggestions that Congress water down or 
gut SORNA seem to be premature at this time.
    The first deadline has not passed, and all States can still 
seek extensions of time. Before we hastily pass judgment over 
the Adam Walsh Act, we must remain mindful of the need to 
effectively track sex offenders. We all know Mr. John Walsh for 
his decades-long efforts as an advocate for missing children 
and crime victims. As you know, Mr. Walsh has been a tireless 
supporter of the legislation being reviewed here that bears his 
son's name.
    The 27-year-old investigation into the murder of his 6-
year-old son, Adam, was closed by Florida police in December of 
last year. This, hopefully, brought some closure to the Walsh 
family. I would have hoped that Mr. Walsh could have served as 
a witness at this hearing, but he was unable to come today. He 
has, however, submitted a written statement to the Subcommittee 
in support for SORNA and for the other child protection laws in 
the Adam Walsh Act.
    I would ask unanimous consent that his statement be entered 
into the record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

                    Prepared Statement of John Walsh

    On July 27, 2006, the anniversary of the abduction of my son Adam, 
I was proud to stand alongside President Bush in the Rose Garden, along 
with other parents who tragically lost their children to predators, for 
the signing of the Adam Walsh Child Protection and Safety Act. My wife 
Reve and I will always be grateful to the Members of both the House and 
the Senate, Democrats and Republicans alike, for the way they all came 
together to pass one of the toughest child protection laws ever.
    This law was necessary because the patchwork of sex offender 
registries around the nation made it too easy for predators to slip 
through the cracks. There are about 100,000 of these sex offenders who 
are not where law enforcement thinks they are. The lack of consistency 
among the state laws makes it easy for them to disappear. These missing 
sex offenders could be preying on someone's child at this very minute. 
We cannot allow this situation to continue.
    No one thought that the law named for my son would be an instant 
solution to this problem. We knew that this would be just the first 
step toward an improved system of keeping track of those who victimize 
our children. But enacting the Adam Walsh Act by itself wasn't enough. 
States want to do a better job of keeping our communities safe but they 
are frustrated in trying to implement the Act because of the lack of 
funding or because there are specific provisions in the Act that they 
can't comply with. We need more time to work out these problems before 
the states' deadline for compliance, in July of this year.
    I know that the House and Senate Appropriations Committees want to 
give the states the federal funding they need, and I applaud 
Representative Mollohan, Representative Wolf, Senator Mikulski and 
Senator Shelby for the efforts they're making to include Adam Walsh Act 
funding in the 2009 appropriations bills. I urge Congress to make this 
funding a priority in our nation's budget this year and every year.
    I thank the Members of this Subcommittee for bringing attention to 
the Adam Walsh Act and for helping to keep our children safe.
                               __________

    Mr. Gohmert. Thank you, Mr. Chairman.
    With that, I thank you. I thank the witnesses for being 
here. As the Chairman said, I think we all want to protect 
children. That is the bottom line. We just need to figure out 
the best way to do it. Thank you.
    I yield back the balance of my time.
    Mr. Scott. Thank you.
    The gentleman from Puerto Rico, did you have a statement?
    Mr. Pierluisi. Yes, Mr. Chairman. Thank you very much.
    I thank you for holding this timely and important hearing 
on SORNA. Like you, I am eager to hear from our panel of 
witnesses, so I will be brief.
    SORNA, when it was enacted in 2006, established a national 
sex offender registry. As we all know, the goal was to ensure 
that convicted sex offenders could not evade detection simply 
by moving from a State or territory with stricter registration 
and notification requirements to a jurisdiction with less 
burdensome requirements.
    Accordingly, SORNA required each State and territory to 
modify its sex offender registration and notification systems 
to comply with extensive requirements set forth in the same. 
The deadline for compliance is approaching, July 2009. Failure 
to comply will result in a jurisdiction's losing 10 percent of 
its Byrne grant funding. For many, perhaps most jurisdictions, 
the cost of compliance is likely to be greater than the amount 
of Federal funding that would be forfeited in the event of 
noncompliance.
    Mr. Chairman, what concerns me are the reasons cited by 
some of the States and territories for their noncompliance to 
date. In certain cases, the grounds given are not primarily 
related to cost or to other logistical impediments. Instead, 
the rationale offered by this these jurisdictions is rooted in 
their profound misgivings over some of SORNA's substantive 
requirements.
    Let me say this from the heart and from my experience; I am 
a former Attorney General. What troubles me the most is that, 
clearly, this system is not working. When you have most, if not 
all, of the States not complying, it speaks for itself. So it 
sounds to me like we have no way other than extending this 
deadline, but it should not be simply for the purposes of 
extending it. We have to take a hard look at this and make sure 
it works. We definitely need a national sex offender registry. 
We definitely need to prevent these types of crimes, the worst 
possible crimes I can think of.
    Certainly, we have to look at things such as, for example, 
the use of an offense-based classification system instead of 
one based on the assessment of future risk. We have to also 
look at the inclusion of certain juveniles who were not tried 
as adults, yet were treated as such for purposes of the 
registry, and the retroactivity aspects of this law, which have 
cost some legal challenges before the courts.
    So I am not happy. I would like the law to be enforced. I 
would like to prevent these crimes from happening. This 
registry makes all the sense in the world, but let us make it 
better. Let us extend the deadline, but I will listen to you, 
the witnesses, and hopefully, we can do it better the next time 
around.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    The Ranking Member of the full Committee, the gentleman 
from Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    This past weekend, on Saturday afternoon, 13-year-old Esme 
Kenney, from Ohio, went for a jog in her neighborhood. She took 
her usual route along the water reservoir near her house. 
Tragically, Esme never made it home. Her body was found on 
Sunday morning.
    Local police have arrested 40-year-old Anthony Kirkland for 
her murder. Kirkland was previously convicted of sexually 
soliciting another 13-year-old girl. Just last week, a warrant 
was issued for his arrest for failing to update his address as 
a sex offender. Kirkland also is a suspect in two additional 
murders, one involving a 14-year-old girl and another involving 
a 45-year-old woman. When Esme's family and friends grieve, 
there are a lot of questions that need to be answered:
    Why was a dangerous convict like Kirkland allowed to roam 
the streets? Would Esme still be alive if Kirkland had 
registered his current address? How can we prevent this from 
happening again?
    This sad story is all too real for one of our witnesses 
today. Following the murder of his own daughter, Mark Lunsford 
has begun a nationwide crusade to protect our children. He has 
fought for legislation to provide more stringent tracking to 
released sex offenders and has urged legislatures to adopt 
longer sentences for criminals who sexually abuse children. 
This type of legislation, often called Jessica's Law in 
remembrance of Mr. Lunsford's daughter, has been introduced or 
adopted in 42 States, a real credit to him.
    As we listen to the statement and consider congressional 
action, we must remember Esme, Jessica and thousands of other 
young child victims. We have a solemn duty to protect the most 
vulnerable among us. Congress should take additional steps to 
give law enforcement officials the tools they need to keep our 
children safe.
    In 2006, Congress passed the Adam Walsh Act to better 
protect children from sexual predators. A number of the Adam 
Walsh Act grant programs that were authorized to help States 
improve sex offender registration will expire at the end of 
this year. These programs were established to enable the 
Justice Department and State and local law enforcement agencies 
to track and to apprehend absconders from the sex offender 
registry, individuals like Anthony Kirkland. That is why I and 
others introduced legislation to reauthorize these programs for 
the next 5 years. I am hopeful that, after today's hearing, 
many of our colleagues on both sides of the aisle will join us 
as well.
    One of the six programs reauthorized by this legislation is 
the Jessica Lunsford Address Verification Grant Program. This 
program provides grants to States, counties, cities, and Indian 
tribes so they can verify the addresses of registered sex 
offenders. Unfortunately, many of the Adam Walsh Act programs, 
including the Jessica Lunsford grant program, have received 
insufficient or no direct funding from Congress. Congress is 
willing to tackle the economic crisis and budget issues, but we 
should not lose sight of other congressional priorities. 
Keeping children safe from sexual predators is not about 
partisan politics. It is about children like Esme, Jessica, and 
the thousands of other child victims nationwide.
    Today we should begin a bipartisan effort that will help 
protect children tomorrow. It is my hope that, as a result of 
the sex offender registration legislation, fewer families will 
have to face the loss of a child in the future.
    Thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you.
    We have been joined by the gentleman from Texas and the 
gentleman from Florida.
    Does the gentleman from Texas have a statement?
    Mr. Poe. Yes, Mr. Chairman.
    Thank you, Mr. Chairman. I appreciate all of you being 
here, especially Mark Lunsford and Ernie Allen for being here.
    In my former life, I was a trial court judge of criminal 
cases for 22 years. I saw about 25,000 people work their way to 
the courthouse, charged with the worst crimes that can be 
imagined, and those crimes continue to occur, including that 
which occurred against Jessica.
    Mark, that is the reason you are here today.
    Those victims are prey. They are picked by some criminal. 
It crosses all races, all ages and both sexes, and they become 
prey. Some of them suffer death because of the crime. Some of 
those people who commit such bad crimes have done it before, 
and unless the law intervenes, they will do it again. We know 
all of the statistics that, when a child molester goes to the 
penitentiary, most of them get out, and most of them re-offend 
as soon as they can. They just do.
    Congress needs to be aware of the real world. Sometimes we 
forget about the real world because we are doing other things, 
but it happens to families throughout the country every day. I 
am disappointed that the States have not been able to comply 
with the requirements. It seems like bureaucracy is getting in 
the way of justice, and I am talking about the Federal 
bureaucracy.
    These people need to be registered, and we need to be able 
to track them wherever they go in the United States because 
they give up the right for us--or not for us to follow them 
when they commit that crime against a child, and Congress 
should make sure that we fund this program completely so there 
are no problems in the future.
    It seems to me that we as a society are never going to be 
judged by the way we treat the rich, the famous, the important 
folks. We are going to be judged by the way we treat the 
innocent, the weak, the elderly, and the children. In some 
ways, we are the only voice they have, and it is important that 
Congress gets with the program and appropriates the appropriate 
money to track these sex offenders.
    The Adam Walsh Child Safety Act is one of the best pieces 
of legislation to ever come out of Congress, and now we need to 
make sure it is implemented so that it works.
    I would yield back the remainder of my time. Thank you.
    Mr. Scott. Thank you.
    Does the gentleman from Florida have a statement?
    Mr. Rooney. No, Mr. Chairman.
    Thank you.
    Mr. Scott. Thank you. We will begin with our witnesses 
then.
    Our first panelist is Laura Rogers.
    In December 2006, she was appointed by President Bush to be 
the founding director of the newly established SMART Office of 
the Department of Justice, which was responsible for overseeing 
the implementation of SORNA. She served in that position until 
earlier this year. Prior to that appointment, she was the 
director of the National Institute for Training Child Abuse 
Professionals. She has also worked for the American Prosecutors 
Research Institute's National Center for Prosecution of Child 
Abuse, and for the District Attorney's Office in San Diego. She 
received her Bachelor of Arts degree from Santa Clara 
University and her Juris Doctorate from the California Western 
School of Law.
    After she testifies, our next panelist will be Deputy 
Attorney General Emma Devillier. She has worked in the Office 
of the Attorney General for Louisiana for 12 years. She 
currently serves as chief of the Attorney General's Sexual 
Predator Unit and oversees the Sex Offender Registration and 
Notification system for the State of Louisiana. She has served 
as a Louisiana State representative and as an assistant 
district attorney prosecuting sex crimes. She is a graduate of 
Louisiana State University, having received a BA in foreign 
languages and a Juris Doctorate from LSU School of Law.
    Our next panelist will be Madeline Carter, who is the 
principal with the Center for Effective Public Policy, and is 
the founding director of the Center for Sex Offender 
Management. She has published widely on critical criminal 
justice issues, including offender reentry and sex offender 
management. She holds a Bachelor of Science degree and a Master 
of Science degree in criminal justice from the American 
University in Washington, DC, and has conducted postgraduate 
work in organizational development at Johns Hopkins University.
    Next will be Ernie Allen, who is the cofounder of the 
National Center for Missing and Exploited Children. He has 
served as its president and chief executive officer since 1989. 
He is also the founder of the International Center for Missing 
and Exploited Children, and serves as its CEO. He has received 
numerous awards for his work in this field, and he is a 
graduate of the Brandeis School of Law.
    Our next panelist is Mark Lunsford. He is the father of 
Jessica Lunsford, who, at the age of 9 years old, was the 
victim of a sex offense and was murdered. He is the founder of 
the Jessica Marie Lunsford Foundation, which advocates for 
tougher laws for crimes against children. He is a board member 
of Stop Child Predators and is a member of the Surviving 
Parents Coalition.
    Next will be Detective Robert Shilling, who is a 27-year 
veteran of the Seattle Police Department. He leads the 
department's Sex and Kidnapping Offender detail and has 
instigated over 300 cases of sexual abuse. He serves on two 
INTERPOL groups, the INTERPOL specialist group on Crimes 
Against Children and the INTERPOL Sex Offender Management Theme 
group. He has received numerous awards and has authored a 
chapter on sex offender registry and community notification, 
published in the INTERPOL Handbook of Best Practices.
    Our final panelist will be Amy Borror, who is a public 
information officer with the Office of the Ohio Public Defender 
where she is the office's primary contact for media and the 
public. Prior to her work, she has worked for the Ohio House of 
Representatives and the Ohio State Bar Association. She is a 
graduate of the University of Toledo.
    So we will begin with Ms. Rogers.

TESTIMONY OF LAURA ROGERS, PREVIOUS DIRECTOR OF THE DEPARTMENT 
            OF JUSTICE SMART OFFICE, WASHINGTON, DC

    Ms. Rogers. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. Thank you for the opportunity to join you today.
    My statement this afternoon concerns progress in 
implementing the Sex Offender Registration and Notification Act 
and how this progress undermines some of the special interest 
groups' and jurisdictions' criticism of the law.
    Special interest groups and individual jurisdictions find 
fault with sections of SORNA. Those with myopic perspective 
often do not understand the significance of individual 
modifications that they seek. We must recognize that every 
jurisdiction is unique with distinct issues. No single 
modification to SORNA will resolve all of the hurdles to 
substantial implementation.
    As the SMART Office has and currently does, each 
jurisdiction must be worked with individually to achieve 
success. However, a significant hurdle of substantial 
implementation that can be solved is the lack of funding 
provided to support the jurisdictions and the SMART Office in 
their efforts.
    The facts show that sex offender registration and a public 
registry are highly valued by the public. In the calendar year 
of 2008, the National Sex Offender Public Web site had nearly 5 
million users, and over 772 million sex offender sheets, or 
files, were hit on. SORNA provides a comprehensive system that 
gives our children and families access to the same minimum 
level of information regardless of where they live, work or go 
to school.
    I am going to focus on three issues today: the challenge to 
achieve SORNA compliance, the flexibility for jurisdictions 
with SORNA and the resources that are needed to fully achieve 
SORNA's vital purpose.
    My first point is that SORNA compliance is challenging, but 
it is achievable and it is on track. The fact that no 
jurisdiction has yet met substantial compliance does not mean 
that SORNA, as currently constituted, is too burdensome or 
unachievable. Congress set July 27 of 2009 as the initial 
compliance date. It also built in two 1-year extensions, 
extending the final deadline to July of 2011.
    When I left office in January, no jurisdiction yet had 
achieved substantial compliance. However, several 
jurisdictions, including Ohio, had been working quickly and 
were extremely close to achieving substantial compliance years 
in advance of the deadline. Numerous jurisdictions have already 
demonstrated enough progress to be granted extensions.
    Jurisdictions still, realistically, have 2 years and 4 
months to substantially comply with SORNA. The final national 
guidelines on sex offender registration and notification were 
only published July 1 of 2008 by the SMART Office. Dozens of 
jurisdictions have already submitted new or amended 
legislation, compliance packages, tiering structures, extension 
requests, and other items for review to the SMART Office. The 
Attorney General, who was deemed by Congress to have the 
authority to identify compliance by the jurisdiction, delegated 
that responsibility to the SMART Office.
    Prior to my departure from the SMART Office, I put into 
formation the establishment of an appeals process for 
jurisdictions which disagreed with compliance decisions. During 
my tenure, we resolved all issues through simple discussion. I 
expect that this informal and pragmatic process will continue 
over the next 2 years until most, if not all, of the 
jurisdictions are in substantial compliance.
    My second point is that SORNA, as it has been implemented, 
offers significant flexibility to the jurisdictions. Though 
SORNA in its statutory language appeared somewhat inflexible, 
the SMART Office resolved many problematic issues and built 
greater flexibility into the system. The final guidelines 
reflect these efforts.
    An example: Initially, the juvenile registration 
requirement was highly problematic and did not make sense to 
many jurisdictions and to other stakeholders, including myself. 
Working within the confines of the law, the final guidelines 
allow jurisdictions complete jurisdiction now regarding 
registering juveniles who engage in the low-end ``consensual'' 
sexual activity. Now only older juveniles who are forcible 
rapists, are forcible sodomists and the like, are mandatory 
registrants under SORNA. Jurisdictions have complete 
discretion--I repeat, complete discretion--and are not required 
to register statutory rape-type offenders.
    Another example is the clean record example. As written, 
SORNA seemed to require mandatory implementation, thereby 
forcing jurisdictions to completely overhaul their already 
well-functioning registration systems that predated SORNA. This 
was clearly not SORNA's intent. Through the guidelines, the 
SMART Office gave jurisdictions far greater flexibility and 
discretion.
    A final example is SORNA's recordkeeping requirement. SORNA 
appropriately requires all information to be collected in a 
digital format or to be digitally linked. Many jurisdictions 
balked at the expense of reacquiring all existing fingerprint 
and palm prints in digital format. After consulting numerous 
subject matter experts, the SMART Office afforded all 
jurisdictions the flexibility to simply scan existing ink 
prints, allowing them to avoid the significant costs of 
purchasing live-scan systems to achieve the same goal. I would 
add that this is one of the major cost items in California's 
budget for implementation.
    As these examples demonstrate, SORNA, as it is being 
implemented, is far from an inflexible system that its critics 
paint it to be.
    My final point is that SORNA is affordable. Though it is 
affordable, far more resources are needed to achieve its 
promise. During my tenure, the SMART Office created, paid for 
and provided a secure communication portal system to all 253 
SORNA registration jurisdictions to allow for full compliance 
with SORNA for immediate communication and information sharing. 
We created the Tribal and Territory Sex Offender Registry 
System, TTSORS, which we provided to each tribe and territory 
and an individual digital sex offender registry system fully 
connected to the National Sex Offender Public Web site. We 
created an automated community notification system to allow for 
proactive notification to the public when sex offenders 
register, and we provided mapping and other types of 
information.
    These points undermine the chief arguments raised against 
SORNA. SORNA is retroactive, but it does not require 
jurisdictions to proactively seek out sex offenders who are not 
currently registering but only those who are convicted of a new 
offense, who were convicted of a sex offense prior to SORNA. 
SORNA does not control where sex offenders live and go to 
school. It has nothing to do with residency restrictions.
    Finally, there is no workable alternative to the system 
like SORNA. SORNA requires registration based on the fact that 
the sex offender has already assaulted a real person. Risk-
assessment tools remain available for treatment purposes but do 
not determine if a convicted sex offender should register or 
guess whether they will offend again. Rightly so, Congress 
recognized that risk assessments are not foolproof and are not 
useful for juveniles. Only a minority of jurisdictions use them 
for registration purposes, and an insufficient amount of 
trained professionals are available to administer these tools 
properly.
    I am happy to answer any questions you have regarding 
SORNA-related topics. Thank you for your time.
    [The prepared statement of Ms. Rogers follows:]

  Prepared Statement of Laura L. Rogers, former Director of the SMART 
             Office, Department of Justice, Washington, DC

    Mr. Chairman and members of the sub-Committee, thank you for the 
opportunity to testify and submit this statement for the record. Until 
recently, I served as director of the Sex Offender Sentencing, 
Monitoring, Apprehending, Registering and Tracking (SMART) Office in 
the Depart of the Justice. Prior to my appointment, I prosecuted child 
homicide and child sexual abuse cases for over a decade at the San 
Diego District Attorney's Office. In have tried over 120 jury trials as 
a prosecutor, and have a 92% success rate. Additionally, I served as a 
senior attorney for the National District Attorney's Association's 
National Center for Prosecution of Child Abuse for 5 years where I 
trained front line child abuse prosecutors, police, doctors, first 
responders and others on how to investigate and prosecute child 
homicide (including shaken baby syndrome cases) and child physically 
and sexual abuse cases. After leaving NDAA, I established a consulting 
firm, the National Institute for the Training of Child Abuse 
Professionals (NITCAP), and continued to train frontline child abuse 
professionals in the United States and around the world. In short, I 
have dedicated my entire professional career to protecting children, 
and holding perpetrators accountable.
    Protecting children is not a partisan, or political issue. It is 
simply the right thing to do. The Adam Walsh Act, which I had the 
privilege to help implement, is part of a larger framework in our 
country to protect children. It is not the only law designed to protect 
children, nor is it the most important law, but it is sound public 
policy. It should be supported by this body, financially and otherwise. 
Like many laws, it is not perfect, and there is room for improvement.
    The Adam Walsh Act was signed into law on July 26, 2006. Since that 
day, there has been much progress throughout this nation in the 
implementation of the Sex Offender Registration and Notification Act 
(SORNA). However, the momentum with which this progress is being made 
stands to be undermined if special-interest groups' and individual 
jurisdiction's myopic criticisms of the law is allowed to change the 
statutory language of SORNA. Individuals who do not have a national 
perspective do not understand the significance of the jurisdiction-
specific modifications they seek.
    Congress intended to give this country and its citizens a 
comprehensive system for sex offender registration and notification 
under SORNA. SORNA recognized that every jurisdiction is unique, with 
distinct systems and issues, and SORNA provides significant flexibility 
that will allow for the comprehensive nature of the Act to be achieved, 
while still requiring jurisdictions to meet or exceed equivalent 
minimum standards.
    Modification to SORNA will not resolve all hurdles to substantial 
implementation. Modifications to SORNA will create new and different 
issues. As the SMART Office currently does, each jurisdiction must be 
worked with individually to achieve success in a unique way.
    The facts show that sex offender registration and a public registry 
are highly valued by the public. In Calendar Year 2008, NSOPW had 
nearly 5 million users and over 772 million sex offender files were 
accessed. Currently SORNA provides a comprehensive system that gives 
our children and families access to the same minimum level of 
information regardless of where they choose to live, work and go to 
school. SORNA was created because of the fact that sex offenders do 
reoffend. It was never intended to reduce recidivism rates--because 
only sex offenders themselves can change this statistic. SORNA and the 
public registry are intended to allow families and individuals to 
inform themselves regarding which sex offenders, both adult and serious 
juveniles offenders lurks in their communities and, based on this 
knowledge, to allow for informed decision making to occur. SORNA is 
about accountability.
    This statement will focus on three issues:

        (1)  the challenge to achieve SORNA compliance

        (2)  flexability for jurisdictions within SORNA, and

        (3)  the resources that are needed to fully achieve SORNA's 
        vital purpose.

1. SORNA compliance is challenging but achievable and on-track. 
Currently, no jurisdiction has met substantial compliance. However, 
this does not mean that SORNA, as currently constituted, is too 
burdensome or unachievable. All this indicates is that the deadline for 
compliance has not yet arrived.
    Congress set July 27, 2009, as the initial compliance date. It also 
built in two one-year extensions, extending the final deadline into 
July 2011. When I left office in January 2009, several jurisdictions 
had been working quickly and were extremely close to achieving 
substantial compliance years in advance of the final deadline. Numerous 
jurisdictions had already demonstrated enough progress to be granted an 
extension. Information on the SMART Office website reveals that several 
more jurisdictions have been granted since my departure.
    The reality is that jurisdictions still have two years and four 
months to substantially comply with SORNA. The Final National 
Guidelines on Sex Offender Registration and Notification were only 
published July 1, 2008. Dozens of jurisdictions have already submitted 
new or amended legislation, compliance packages, tiering structures, 
extension requests and other items for review to the SMART Office. 
Jurisdictions will work within whatever time frame is available. 
Extending the current time line will assure that many jurisdictions 
will delay in the process of substantial implementation. The issue of 
the necessity for an additional extension in addition to the two 
already provided for in SORNA is not yet ripe.
    The Attorney General is responsible for determining substantial 
compliance by the jurisdictions with SORNA, and that duty was delegated 
to the SMART Office. Prior to my departure from SMART, I was working 
with the Office of General Counsel to put into formation the 
establishment of a formal appeals process for jurisdictions which 
disagreed with compliance decisions. During my tenure, we resolved all 
issues through simple discussion. I expect that this informal and 
pragmatic process will continue over the next two years until most or 
all jurisdictions are compliant.
    As a practical matter, the term substantial compliance means just 
that; complying with the minimum standards as required by SORNA. It 
does not, and has never in practice, meant total compliance. States 
such as Louisiana, whom I had the privilege of working with, have held 
an unreasonable and incorrect understanding of ``substantial 
compliance.'' To ``substantially comply'' with SORNA, at jurisdictions, 
at minimum must require persons convicted of offenses included under 
SORNA to register in accordance with the minimum standards set by 
SORNA.
    Further, Congress included in SORNA a method to resolve any 
conflicts that might exist between SORNA and a jurisdiction's 
constitution. Prior to my departure, only two jurisdictions had 
submitted potential conflicts to the SMART Office, and upon thorough 
review, neither met the requirements for relief under SORNA.

2. SORNA offers significant implementation flexibility to 
jurisdictions. The statutory language of SORNA, with respect to certain 
sections was initially somewhat inflexible. Through the Final 
Guidelines, I resolved many problematic issues and built in greater 
flexibility to the system. The SMART Office received over 650 pages of 
comments to the Proposed Guidelines. Those comments were quite helpful 
and instructive. The open comment period, and the feedback we got 
during that timeframe, guided us in the drafting of the Final 
Guidelines. As a frontline child abuse prosecutor, I know how important 
it is for guidelines and regulations to assist practitioners, not 
hinder them.
    Of all of the issues, the most common refrain we heard during the 
public comment period to the proposed guidelines was the requirement 
that juvenile sex offenders register. Congress originally wrote the 
juvenile registration requirement to include registration of 
adjudicated juveniles 14 years or older who committed acts of rape, 
sexual acts against unconscious or intoxicated individuals and sexual 
conduct against children under 12 years old. As written by Congress, 
this section was highly problematic and did not make sense to many 
jurisdictions and other stakeholders. I found the provision 
particularly troubling. The comments provided during the publication of 
the proposed guidelines echoed the same concerns. Working within the 
confines of the law, I worked to ensure that the Final Guidelines allow 
jurisdictions complete discretion regarding registering juveniles who 
engage in low end ``consensual'' sexual conduct against children under 
age 12. Now, only older juveniles who are forcible rapists and the like 
are mandatory registrants under SORNA.
    Congress wisely provided jurisdictions complete discretion to not 
register statutory rape type offenders. Cases involving participants 
are at least 13 years old with a partner not more than 4 years older 
are not required to register under SORNA's registration scheme. If 
consensual sexual activity does occur between partners with more than 4 
years of separation, then prosecutors have several options: charge the 
case as a felony qualifying as a tier II offense under SORNA; charge 
the case as a misdemeanor;, or decide not to file the case. In many 
cases, the best result from a local prosecutor exercising wise 
discretion is not to file a case in the first case. SORNA does not 
require any prosecutor to file any case. In most cases, when charged 
most severely, the offender would be no more than a tier two-type 
offender, but often a tier one offender and therefore not necessarily 
required to be on a public registry.
    Another example is the clean-record example. The clean record 
exception allows tier one and adjudicated juvenile tier three sex 
offenders to discontinue their registration obligations after 
successfully completing four criteria as set out in the statutory 
language of SORNA. As written, SORNA seemed to require mandatory 
implementation by individual jurisdictions. Because some jurisdictions 
that have registration systems that far exceed the minimum requirements 
of SORNA, mandatorily requiring implementation of this exception would 
cause some jurisdictions to completely overhaul their already well 
functioning registration systems. Clearly SORNA's intent was to allow 
great flexibility to the jurisdictions and not force already well 
functioning systems to revamp. Through the Final Guidelines, we made 
sure to give those jurisdictions far greater discretion and 
flexibility.
    A final example is SORNA's recordkeeping requirement. SORNA 
appropriately requires all information be collected in a digital format 
or be digitally linked. Many jurisdictions balked at the expense of 
reacquiring all existing finger and palm prints in digital format. 
After consulting numerous subject matter experts, we afforded 
jurisdictions the flexibility to simply scan existing ink prints, 
allowing them to avoid the significant costs of purchasing live scan 
systems to achieve the same goal. This decision was made for two 
reasons; first, it was good policy; and two, this decision can 
significantly reduce the costs jurisdictions, such as Californias' 
claim they must shoulder in order to be in substantial compliance.
    These are just a few of the myriad examples of the flexibility that 
we built into the Final Guidelines. As these examples demonstrate, 
SORNA, as it is being implemented, is far from the inflexible system 
that its critics paint it to be.
    However, there is a significant hurdle to substantial 
implementation that can be solved by Congress: the lack of funding. 
Congress should provide resources to support the jurisdictions and the 
SMART Office in their ongoing efforts.

3. My final point is that although SORNA is affordable, far more 
resources are needed to achieve its promise. During my tenure, the 
SMART Office created, paid for, and provided a secure communication 
portal system to all 253 SORNA registration jurisdictions to allow full 
compliance with SORNA for immediate communication and sharing of 
information. On January 20, 2009, we made available to relevant 
jurisdictions the Tribal and Territory Sex Offender Registry System 
(TTSORS), which provides each tribe and territory an individual digital 
sex offender registry fully connected to the NSOPW. In only a couple of 
months, tribes have embraced this opportunity and approximately 35 
tribes are currently testing the software and three tribes have 
requested to be connected to the system. We created an automated 
community notification system to allow for proactive notification to 
the public when sex offenders register in a community, the ability to 
conduct an email address search, a several mile radius search map where 
sex offenders live, work and go to school and we renovated the NSOPW. 
We did this all with a limited amount of staff and money; imagine what 
we could have been achieved with adequate resources.
    Another controversial issue is the retroactivity of SORNA. Congress 
intended SORNA to provide a national blanket of comprehensive 
standards. The only way to achieve this goal is to require all sex 
offenders who are currently active in the legal system to be required 
to register. Blindly excluding all sex offenders convicted prior to 
July 2006 would significantly impact SORNA's effectiveness. The United 
States Supreme Court has determined that retroactivity is 
constitutional, as it regulatory and is not a punitive measure.
    To clarify how the retroactive component works, SORNA does not 
require jurisdictions to proactively seek out sex offenders that have 
completed their registration requirements and that are not currently 
registering or on some type of criminal supervision (parole/probation). 
Only sex offenders currently registering, who are currently being 
supervised or who are convicted of another crime are captured under 
SORNA requirements. The retroactivity issue, though controversial now, 
will ultimately fade away as more sex offenders receive convictions 
post implementation.
    SORNA does not control where a sex offender lives, works or goes to 
school. It has nothing to do with residency restrictions which are all 
the result of state and local legislation.
    There is no workable alternative to a system like SORNA. SORNA is 
an evidence-based system that requires registration based on the fact 
that the sex offender has ALREADY been convicted of assaulting a real 
person. There is a movement afoot however, to remove the evidence based 
component of SORNA and replace it with a soft (and unproven) artifice 
called ``risk assessments.'' Congress wisely recognized that risk 
assessment tools should not used to determine if a convicted sex 
offender should register--by guessing whether they will re-offend. 
Rightly so, Congress recognized that risk assessments are not foolproof 
and are not useful for juveniles. However, ``risk assessment'' tools 
remain available for treatment purposes. Currently, only a minority of 
jurisdictions use them for registration purposes, and it should remain 
that way for good reason. For one reason, besides the obvious (they are 
not reliable) there are an insufficient amount of trained professionals 
available to appropriately administer risk assessment tools to all the 
sex offenders in the United States.
    SORNA is a strong law. It is part of the tool kit that child abuse 
professionals need to protect children. It provides for a standardized 
minimum level of sex offender registration and notification throughout 
the United States. SORNA is not meant to be a panacea for sexual abuse, 
assault, rape and sexual murders. It is meant to and does provide 
information that allows parents and others to make informed decisions 
regarding adult sex offenders and serious juvenile sex offenders who 
reside, work and go to school in their communities. The amount of use 
of the NSOPW demonstrates that the public has embraced the type of 
knowledge and information that SORNA provides.
    Thank you for the opportunity to provide my thoughts, and I am 
eager to work with the Congress on this important issue in the future 
in any way I can be of assistance.
                               __________

    Mr. Scott. Thank you, Ms. Rogers.
    We neglected to point out the timing device that is on the 
table. We would like the witnesses to try to confine their 
remarks to 5 minutes to the best of their ability.
    Ms. Devillier.

  TESTIMONY OF EMMA J. DEVILLIER, ASSISTANT ATTORNEY GENERAL, 
CRIMINAL DIVISION, OFFICE OF THE ATTORNEY GENERAL OF LOUISIANA, 
          CHIEF, SEXUAL PREDATOR UNIT, BATON ROUGE, LA

    Ms. Devillier. I am here on behalf of Attorney General 
Caldwell and the State of Louisiana. I am grateful to the 
Chairman, to the Ranking Member and to the other esteemed 
Members of the Subcommittee for the opportunity to testify 
regarding the current barriers to the implementation of SORNA. 
We are very grateful for your commitment to exploring and to 
crafting the sex offender registration and notification policy 
that works to enhance public safety.
    I come before you this afternoon as someone who has been 
and is currently a front-line prosecutor and is a 
representative of an Attorney General who has 30 years of 
experience as a front-line prosecutor. We understand the 
difficulties involved in prosecuting child sex cases. We also 
understand how registration issues affect our ability to 
administer justice in those cases, and as parents, we 
understand that we want to know if a predator lives next-door 
to us, but we have to balance all of these interests. We 
believe very strongly that SORNA did not get it right.
    SORNA is not the pinnacle of good policy for sex-offender 
tracking. In fact, in some respects, it is not good policy at 
all. We all believe in mandatory sex offender registration and 
in child predator registration. The devil, however, is in the 
details. I am here to tell you why no State will be able to 
come into compliance with SORNA, as defined by the current 
Federal guidelines, by July of 2009, and I am here to 
respectfully implore you to extend the deadline and to take a 
hard look at what it will take to have an effective public 
policy that will accomplish the goals of SORNA. It is important 
to remember that all States will lose millions of dollars in 
critical law enforcement funding through the Byrne Grant 
program when we do not meet the July deadline.
    Let us talk about some of those major goals. I encourage 
all of you to please ask me questions so I can expound upon 
this, but because of the limited time, I am going to have to 
hit the highlights.
    The final guidelines were not promulgated until June of 
2008. That is 2 full years after SORNA was passed. The States, 
therefore, have only had since June 2008 to be finally told 
what it is they have to do. Louisiana has been working since 
2006 and, actually, did not wait until the final guidelines 
came out to attempt compliance, and yet we still stand here 
today, having been found not to be in compliance.
    The second hurdle is that the guidelines, once we did get 
them, are impractical. Once the guidelines were published, it 
became abundantly clear that what was expected of the States by 
the SMART Office was impractical, ill-conceived, not advisable 
for the good of the criminal justice system and, in some 
instances, was not required by the congressional act itself. 
Let me explain.
    One of the impracticalities is that it requires all child 
sex cases 25-year registration or lifetime registration. This 
will definitely and has in Louisiana resulted in the lack of 
ability to get pleas in difficult child sex cases. Remember 
that registration of a sex offender presupposes that we have 
convicted that person.
    When you tell me that I have nowhere to go; I have a 7-
year-old-child telling me, ``Ms. Devillier, please do not make 
me go to trial. Please find a way to get this guy to plea,'' 
and even though the courts have said this is regulatory and not 
punitive, defendants do not see it that way. When that 25-year 
registration or lifetime registration is an impediment to 
getting a plea in a difficult case that I believe I will lose 
or, because of which, I will re-victimize this child by putting 
him through a public trial, I have got to have somewhere to go.
    Right now, what is happening is that we are going to some 
prosecutors outside of sex crime offenses to get that plea and 
are just requiring registration as a condition of supervision. 
It is a real problem, and it does not effect the policy that 
you want to effect with SORNA. The requirement that tiering 
should be based on underlying facts which are not necessarily 
an element of the offense does not afford due process, and it 
limits the flexibility that prosecutors must have in dealing 
with tough cases involving traumatized child victims.
    The guidelines say we have to look at the actual age of the 
victim as to whether or not that is an element of the offense. 
How can that possibly afford due process? That ties my hands as 
a prosecutor in trying to get pleas.
    The third hurdle is that the SMART Office's determination 
in the guidelines deemed the substantial compliance in the 
language of the act itself to be actual or strict compliance. 
Basically, they are telling us that you have to adopt every 
aspect of SORNA, or you are not going to be in compliance. This 
leaves no room for the States to maneuver around and to 
accommodate our unique criminal statutes and existing policies, 
laws and procedures with regard to sex offender registration, 
which many States have invested large amounts of resources 
developing. And I submit to you that it completely ignores the 
actual language of the act, which only requires substantial 
compliance and not actual or strict compliance.
    The fourth hurdle has been retroactive application of the 
act. This will interfere with obtaining pleas in non-sex-
offense felony cases because it says, when a defendant comes 
back into the criminal justice system, you can renew his old 
registration requirements. It will affect being able to get 
pleas in other types of felony cases.
    And also, retroactive application will allow defendants 
whose plea agreement legally included waiver of registration 
because, before 1999, you could waive registration legally, it 
will allow them--the courts in Louisiana have rules that they 
can withdraw their pleas if you try now to make them do this, 
because that was an inducement for them to give up their right 
to a trial.
    In conclusion, A.G. Caldwell and I urge the Members of the 
Committee to consider an extension of the deadline for the 
States to comply with the act, to establish task forces that 
invite those like me and the other members of this esteemed 
panel to talk to you about the issues involved and have the 
input.
    Even Ms. Rogers, the former director of the SMART Office, 
has admitted, even though the intentions of those who crafted 
the Adam Walsh Act were good, that they did not consult front-
line prosecutors, like myself, in that process. Not to do so 
now would jeopardize the viability of the overall goal of 
SORNA, and it would put States at imminent risk of losing vital 
Byrne Grant dollars for worthy law enforcement programs 
beginning in July of this year.
    Thank you for your time. I welcome any questions that would 
allow me to expound upon these comments.
    [The prepared statement of Ms. Devillier follows:]

                Prepared Statement of Emma J. Devillier

    My name is Emma Devillier. I am here on behalf of Attorney General 
James D. ``Buddy'' Caldwell, as an Assistant Attorney General for the 
State of Louisiana where I serve as Chief of A.G. Caldwell's Sexual 
Predator Unit. I come before you this afternoon as someone who has been 
a frontline prosecutor of sexual offenders for over a decade and also 
as a representative of A.G. Caldwell, who has thirty years of 
experience as a frontline prosecutor. It should first be said that A.G. 
Caldwell and I believe that establishing some uniformity among the 
states regarding sex offender registration laws is a worthwhile goal. 
Ultimately, a reasonable degree of uniformity will lead to increased 
compliance by offenders and fewer legal defenses for those who continue 
to be non-compliant. A.G. Caldwell and I also speak to you today as 
parents, who want to know if there is a predator next door. As 
prosecutors and parents, we understand what it takes to successfully 
prosecute sex offender and child predator cases, how registration 
issues affect the administration of justice in some of those cases and 
we understand a parent's desire to have information that will allow 
them to protect their children against such predators. We, however, 
believe very strongly that SORNA, did not get it right. SORNA is not 
the pinnacle of good public policy where sex offender tracking is 
concerned. In fact, in some respects it is not good policy at all. When 
you look at what Louisiana has done to craft and implement a tough and 
targeted policy of mandatory sex offender registration which maintains 
the integrity of the criminal justice system and does not impede the 
administration of justice, it will become abundantly clear to you where 
SORNA falls short of the mark and why states are having difficulty 
adhering to it.
    We all believe in mandatory sex offender and child predator 
registration, but if we do not do it right we are helping the true 
predators go undetected. The devil is in the details. I am here to tell 
you why Louisiana has not and why other states probably will not come 
into compliance with the current legislation and to respectfully 
implore you to take a hard look at what it will take to have an 
effective public policy that accomplishes effective tracking of sex 
offenders and child predators while not impeding the administration of 
justice.
    A.G. Caldwell and I are grateful to Chairman Robert C. ``Bobby'' 
Scott, Ranking Member Louie Gohmert, and the other esteemed members of 
the subcommittee for the opportunity to testify regarding the current 
Barriers to Implementation of the Sex Offender Registration and 
Notification Act (hereinafter referred to as ``SORNA'') and for your 
commitment to exploring and crafting sex offender registration and 
notification policy that works to enhance public safety.
    The Office of the Attorney General of Louisiana suggest that the 
Subcommittee delay the July 27, 2009 enforcement date of SORNA and 
create task forces to examine the significant barriers to implementing 
the Act. This is not just an arbitrary suggestion. It is an informed 
and educated analysis developed over time.

             The Hurdles of Implementing SORNA in Louisiana

    I was the Assistant Attorney General responsible for coordinating 
Louisiana's efforts to implement SORNA compliant legislation. In fact, 
I was one of the first Assistant Attorneys General in the country to 
work with the SMART Office when it first opened for business. Between 
late 2006 and mid-2007, my office worked closely with all stakeholders 
(District Attorneys, Sheriffs, Corrections officials, etc) to help 
craft Louisiana's version of SORNA, House Bill 970, which passed in the 
2007 Regular Session of the Louisiana Legislature which session 
concluded in June of 2007. Because Louisiana was trying to comply 
within the first year of passage of the Adam Walsh Act, key members of 
the Louisiana Legislature and I had the dubious charge of trying to get 
SORNA compliant legislation passed before the release of the SORNA 
Final Guidelines. After passing HB 970 in the 2007 Regular Session, 
Louisiana submitted the legislation to the SMART office for 
determination of substantial compliance. Despite best efforts, in late 
fall of 2007, the SMART Office determined that though the State of 
Louisiana had made ``substantial efforts to achieve compliance with 
SORNA'', the State had ``not achieved substantial compliance with 
SORNA.'' Former Director of the SMART Office, Laura Rogers, stated that 
Louisiana had failed to enact all provisions of SORNA.
    In our Compliance Audit by the SMART Office, Louisiana was told 
that in some instances HB 970 had exceeded what is required by SORNA. 
By this time, Louisiana had no choice but to wait for the release of 
the final guidelines to be issued before making another attempt at full 
compliance. However, some, though not all, of the changes recommended 
in the compliance audit were enacted in the 2008 regular session of the 
Louisiana Legislature. The Final Guidelines were not released until 
July 1, 2008, after the 2008 Regular Session of the Louisiana 
Legislature and a full year after Louisiana had originally submitted HB 
970 to the SMART Office. Additionally, Louisiana takes issue with the 
guideline's interpretation of the substantial compliance language in 
the Act to mean actual ( strict) compliance is required. There is a 
huge difference in substantial compliance with the intended purposes of 
the Act, versus actual compliance with the poorly drafted and 
illogically formulated provisions of the final guidelines as 
hereinafter discussed.
    This entire experience has been difficult for several reasons. 
First, Louisiana received very little guidance from the SMART Office. 
Though Louisiana tried very hard to work with the SMART Office, we 
received no clear instruction or guidance on whether the legislation we 
were proposing was sufficient or even close to being in ``substantial 
compliance'' with SORNA. Second, the SORNA final Guidelines are not 
practical. We experienced great difficulty in determining which of our 
State's substantive sex crimes belonged in which tier. The elements of 
Louisiana's sex crimes do not fit neatly into the elements of each tier 
proposed by SORNA. The Final Guidelines do not take into account the 
elements of a sex crime that vary from jurisdiction to jurisdiction. 
Third, it is quite obvious that the SMART office interprets 
``substantial compliance'' to mean ``actual'' or ``strict compliance. 
The SORNA Final Guidelines determined that SORNA offered jurisdictions 
a ``floor'' in which to comply, not a guideline. In this vein, 
Louisiana was even advised in its compliance audit by the SMART office 
that it would have to amend some of its substantive sex crimes in order 
to comply. Fourth, as a prosecutor who has specialized in sex crimes, I 
can tell you that SORNA's offense-based (at least as interpreted by the 
SMART Office), retroactive system is overinclusive, overly burdensome 
on the state, exorbitantly costly, and will actually do more to erode 
community safety than to strengthen it. This is generally true, I am 
advised, not just for Louisiana but for most states.

           FIRST HURDLE: LACK OF TIMELY AND ACCURATE GUIDANCE

    Louisiana seeks this extension because the implementation phase has 
been delayed by lack of proper guidance from the SMART office. As 
outlined previously, though perhaps through no fault of the SMART 
office, there were undue delays by the SMART office in responding to 
the request for guidance from Louisiana. Though our criminal statutes 
were outlined to the SMART office before the beginning of our 
legislative session in 2007, we did not get a response until well after 
the session was over. Additionally, this response was not a firm one as 
the final guidelines were not published until after the end of the 2008 
legislative session. After reviewing the final guidelines, Louisiana 
believes in some instances they are ill conceived and are not practical 
or advisable for the good of the criminal justice system and Louisiana 
seeks this extension in order have an opportunity to discuss these 
issues with the Congress. Even former Director of the SMART office, 
Laura Rogers, in her recent comments to the Surviving Parents 
Coalition, agrees that though the drafters of the Adam Walsh Act had 
good intentions, ``they did not consult professional child abuse 
prosecutors or those with frontline experience and knowledge.'' Having 
been a legislator, I am acutely aware that even with the best 
intentions and the best attempt to consult all stakeholders, mistakes 
in the drafting of legislation is difficult to avoid, particularly when 
it is as comprehensive as the Adam Walsh Act. Those mistakes are 
inevitable and understandable. What would not be understandable is not 
addressing those mistakes once they become apparent.

              SECOND HURDLE: GUIDELINES ARE NOT PRACTICAL

    The final guidelines indicate that all state sex offenses must be 
``tiered'' by comparing the state sex offense to the described federal 
offense to determine if the state sex offense is comparable to or more 
severe than the federal offense. This is fairly consistent with the 
AWA. However, the problem comes in the interpretation as to how that 
comparison is performed. The problem in trying to compare our offenses 
to the federal offenses is that the federal offenses differentiate 
seriousness based on facts not necessarily made elements in the State 
definition of the crime.
    To understand the problem you will first have to understand that 
the Federal statutes to which the state statutes are to be compared are 
distinguished between sexual acts and sexual contact and require 
categorization based on the method used (physical force/drugs) to 
complete the sexual act or contact and the age of the victim. For 
example the guidelines require that any offense which involves force 
and penetration must fall into tier 3 and require lifetime registration 
and any offense involving penetration or any type of sexual touching 
(through the clothes or otherwise) of a child under 12 requires 
lifetime registration whether or not force or drugs were used to 
accomplish the task. Given that requirement, in which tier should 
Louisiana's indecent behavior statute be categorized? The indecent 
behavior statute in Louisiana requires lewd and lascivious behavior 
upon the person or in the presence of a child under the age of 
seventeen when there is an age difference of greater than two years 
between the child and the perpetrator. The elements of the indecent 
behavior do not necessarily include a sexual act (penetration or direct 
touching of the genitals) or sexual contact (fondling of genitals 
through the clothing). Indecent behavior could be accomplished by 
performing a sexual act in the presence of a child. A good prosecutor 
will not list the nature of the lewd or lascivious behavior except to 
state that it happened upon the person OR in the presence of a child 
and that the child was under the age of sixteen and the perpetrator was 
more than two years older. The prosecutor will always only plead the 
facts he necessarily has to prove because he will be held to whatever 
facts are alleged.
    The SMART offices compliance audit of Louisiana's 2007 legislation 
stated that Indecent Behavior should not be listed as a tier I crime 
(requiring 15 years of registration) because it could involve a sexual 
act or contact with a minor. The audit stated that this crime should be 
listed as a tier II (requiring 25 years of registration) and, if the 
victim was under the age of 12, it should be listed in tier III 
(requiring lifetime registration). The audit and the final guidelines 
state that the age of the victim should be controlling as to the tier 
of the offense, whether or not it is an element of the offense. This is 
not enforceable. If the age of the victim is not in the bill of 
information how will you hold the offender accountable for a fact that 
has not been established in a court of law? The guidelines state that 
you will have to look at the underlying facts of the offense to 
determine the age of the victim. How does this possibly afford due 
process? Basically, the guidelines seem to be stating that we must 
allow some bureaucrat to determine what the underlying facts of a 
conviction were and then apply the appropriate tier to that offense 
based on the determination of this bureaucrat. We are essentially 
basing an offender's future legal obligation to register on facts that 
have not been established in a court of law. Because SORNA requires 
that time period of registration and number of in-person renewals per 
year be tied to the elements of the offense of conviction, the 
Louisiana legislature thought it necessary to have a judicial 
determination of these facts. Therefore, we placed offenses in tier I 
which did not necessarily include the types of elements described in 
SORNA for tier II and tier III placement. The SMART office's test was 
the opposite, if the elements of tier II or tier III were not 
necessarily excluded, then it should be placed into the higher tier. 
This means all offenses involving a child victim must require a 25 year 
or lifetime registration period.
    If no crimes against children are left in tier I, i.e., indecent 
behavior with a juvenile, prosecutors who run into difficulty with a 
reluctant and terrified victim will have to go outside of the sex 
offense statutes to accomplish a plea where there will be no resulting 
sex offender/child predator registration required. Even though the 
courts have ruled that registration is regulatory and not intended to 
be punitive, the courts did recognize that registration does have 
punitive effects. When these punitive effects interfere with getting a 
plea in a child sex case because the offender refuses to plead to 
anything that requires 25 year or lifetime registration and you have no 
sex offense in tier I that you can offer because your victim is seven 
and traumatized about trial, the prosecutor will go outside of the 
child sex crimes statutes to effectuate a plea. This is not based on 
laziness or not caring, it is based on the realities of what we, as sex 
crimes prosecutors, deal with on a regular basis in trying to seek 
justice while not re-victimizing the victim.
    Registration is supposed to be a product of a conviction. In order 
to maintain prosecutorial discretion which is essential for the 
administration of justice, if registration is to be offense based, it 
must be based on the facts as alleged in the bill of information. If 
the facts in the bill of information leave doubt as to the specific act 
involved or the specific age of the victim which would establish that 
the offender's actions were of the type described as a tier II or tier 
III offense, then the offense should be categorized in tier I.
    Sex cases involving minor victims are the most difficult cases to 
prove. Often your whole case comes down to the word of a child versus 
that of an adult. Many of these offenses are not reported until the 
perpetrator (often a family member) is separated from the victim 
through divorce or a change in living circumstances. There is rarely 
any physical evidence. The child is often reluctant to participate in a 
public trial. We cannot mandate sex offenders register until we convict 
them. Good public policy will not impede a prosecutor's ability to get 
a plea is these most difficult cases. The current requirements of SORNA 
will impede this process much to the detriment of public safety and 
criminal justice.

 THIRD HURDLE: SMART OFFICE DETERMINATION THAT SUBSTANTIAL COMPLIANCE 
                    MEANS ACTUAL (STRICT) COMPLIANCE

    Louisiana addressed some of its concerns outlined above by banking 
on the ``substantial compliance'' language of the act. The substantial 
compliance language, we thought, would allow us to leave certain child 
sex cases in tier I so that prosecutors would have a place to go in 
child sex cases in which the victim recants or indicates that a trial 
is not something they can handle and registration for 25 years or life 
was a deterrent to getting a plea as charged. Again, even though the 
courts have found that registration is not part of the punishment for a 
crime but is regulatory, offenders surely do not see it that way. It is 
particularly burdensome in Louisiana because we require, in addition to 
publication of the information on the registry, that the offender send 
a post card with his picture and the details of his conviction to all 
of his neighbors within a certain radius of his home. This must be done 
every time the offender changes addresses and every five years, whether 
or not the offender has a change of address. Additionally, we require 
offenders to carry a driver's license or identification card with SEX 
OFFENDER in red letters across the bottom of the offender's photo. 
Also, in Louisiana, no matter the tier of your first sex offense 
conviction, a second conviction will require lifetime registration. 
Still further, if the offense of conviction requires registration for 
any period less than life, the prosecutor upon showing by a 
preponderance of the evidence that the offender poses a substantial 
risk of re-offending, the court may order the offender to register for 
life. All of these additional provisions go far beyond what is required 
by SORNA. By determining that ``substantial compliance'' means strict 
compliance, the SMART office has taken away Louisiana's ability to 
address the problems outlined above in a fashion that does no harm to 
the intent of the act. To the contrary, we believe that what Louisiana 
has done actually enhances public safety by maintaining prosecutorial 
discretion and targeting resources towards the worst offenders. 
Louisiana submits that no where in the Adam Walsh Act does the Act 
require strict compliance or suggest that these are minimum standards 
which must be adhered to religiously. Such a requirement is unrealistic 
and impractical.

           FOURTH HURDLE: RETROACTIVE APPLICATION OF THE ACT

    With respect to sex offenders whose convictions predate the 
enactment or implementation of SORNA, the Guidelines require that a 
jurisdiction register the following offenders: (1) those who are 
incarcerated or under supervision for the registration offense or for 
some other crime; (2) those who are already subject to a pre-existing 
sex offender registration requirement; and (3) those who subsequently 
reenter the jurisdiction's justice system for a conviction for some 
other crime, even a non-sexual offense.
    One of the practical problems with this retroactive provision is 
that it fails to give proper guidance to enable law enforcement to 
identify such offenders and to classify them in a tier. When the 
requirement of retroactive application of SORNA is taken into 
consideration, the problem of ``tiering'' offenses becomes even more 
evident. Even if the age of the victim or specific facts relating to 
the offense are put forth in the Bill of Information, law enforcement 
agencies tasked with enforcement of registration laws will spend 
countless man hours tracking down bills of information, often from out 
of state convictions, trying to ascertain the facts alleged in each 
bill rather than just looking at the criminal statute violated in the 
conviction to determine if it necessarily includes a forced sexual act 
or sexual contact with a child under the age of 12.
    Retroactivity as required by the guidelines is also problematic in 
that it requires an offender who has long ago finished his legal 
obligation to register to register once again if he is subsequently 
convicted of any felony. States do have the discretion to give the 
offender credit for the time that has elapsed since he last registered, 
but that is small solace to an offender who under SORNA will have to 
register for life if convicted of the subsequent felony. Prosecutors 
have real concerns about the effect of this provision on the ability to 
get pleas in cases having nothing to do with a sex offense. For 
example, an offender who has a felony theft charge pending who twenty 
five years ago was convicted of indecent behavior with a juvenile under 
the age of 12, will, if convicted of the felony theft charge, have to 
register again for the rest of his life, under the current requirements 
of the guidelines. Louisiana, therefore, adopted a limited 
retroactivity provision making the new registration periods applicable 
to all sex offenders who were under an active obligation to register as 
of the effective date of the act. Retroactivity was also limited in 
Louisiana because prior to 1999, a Judge could legally waive sex 
offender registration and many did, as part of a plea agreement. There 
was real concern that convictions could be overturned if the new 
registration statute was made to apply to these offenders. There is 
Louisiana case law supportive of the offender's right to withdraw his 
plea if the waiver was part of the plea agreement.
    Furthermore, I ask you, how will juveniles who never had an 
existing duty to register be subjected to the Act? How would we find 
them? Louisiana, therefore, adopted a prospective only application for 
a very limited number of juvenile offenders age 14 and above 
adjudicated or convicted of only the most heinous acts--aggravated 
rape, forcible rape, 2nd Degree Kidnapping of a child under 13, 
aggravate kidnapping of a child under 13, aggravated incest involving 
penetration and aggravated crime against nature.
    Another issue stemming from the retroactive provision of SORNA is 
the ``recapturing'' of offenders. Once a jurisdiction enacts SORNA 
legislation, that jurisdiction is required to ``recapture'' and 
register ``retroactive'' sex offenders within the following time 
frames'' Tier I offenders within one year; Tier II offenders within six 
(6) months; and, Tier III offenders within three (3) months. How is 
this to be accomplished? We can barely keep up with the ones we know 
about now given our limited resources.

Compliance Issues Plaguing Other Jurisdictions

    I participate in a national sex offender management listserv and 
have engaged with other offices of Attorneys General through the 
National Association of Attorneys General to discuss issues related to 
SORNA implementation. Through this process I have learned that not only 
Louisiana but many other states are experiencing the same or similar 
difficulties as evidenced by the failure of any state to achieve 
substantial compliance as of this date. In addition to the above issues 
faced by Louisiana, discussions with other States through NAAG and 
otherwise, have raised other issues with regard to AWA compliance which 
need to be considered:
        1)  Many States currently have risk-based assessment schemes to 
        determine the length and conditions of registration rather than 
        offense-based schemes in which they have invested lots of time 
        and money and which they believe accomplish the same goal as 
        the AWA but just arrives there through a different avenue. 
        These States have indicated that, at least informally, the 
        SMART office has indicated that they will have to switch to an 
        offense based scheme or be deemed to be non-compliant. 
        Massuchusetts has jurisprudence which establishes that sex 
        offenders have a state constitutional right to a risk 
        assessment before being placed on a public registry.

        2)  Most other States have indicated similar problems with 
        retroactivity as faced by Louisiana.

        3)  Some States are concerned that the inclusion of the sex 
        offender's employment address and school address will impede 
        reintegration of sex offenders into the community by making it 
        much more difficult to obtain employment, de-stabilize 
        offenders and be counter productive to public Safety.

        4)  Some States are concerned that quarterly registration will 
        divert law enforcement resources away from the more important 
        public safety task of compliance checks to do less important 
        administrative tasks.

        5)  The requirement that the States get palm prints which can 
        only be provided by agencies that use Livescan technology will 
        prove too expensive and difficult for all registering agencies 
        to acquire.

        6)  Whether those States who allow a sex offender to be 
        relieved of the obligation to register by obtaining a 
        certificate of rehabilitation will, due to the retroactivity 
        requirement, have to revive those obligations. (The SMART 
        office has now said any provisions to relieve an offender from 
        registration before the allotted time periods in the AWA would 
        not be in substantial compliance with the AWA)

        7)  The significant cost of compliance versus the loss of Byrne 
        funds. SORNA Compliance motivated by loss of Byrne Funds

        8)  Some States have significant concerns about juvenile 
        registration based on their constitutions, on public opinion or 
        on their juvenile systems which are design to not permanently 
        label a child in hopes of rehabilitation.

                               Conclusion

    As a State AG, we support the idea of having more homogeneous sex 
offender registration laws across the nation. Louisiana specifically, 
submits that it has achieved ``substantial compliance'' as required by 
SORNA because we disagree with the SMART office's interpretation of 
that language in the ACT to mean strict compliance. However, any such 
federal attempt to help all state's achieve this goal must take into 
consideration the varying states' current substantive criminal statutes 
and the varying sex offender registration laws and policies with the 
goal of making enforcement of such laws when an offender crosses state 
lines more feasible. To ensure that federal legislation in this regard 
is based on sound public policy and that it will be effectively 
implemented, all stakeholders must be brought to the table.
    In addition to the issues highlighted above there are many more 
which need discussion. Not the least of which is SORNA's inadequate 
provision of sex offender registration computer programs to 
jurisdictions. The program made available only addresses the needs of 
the central registry in each jurisdiction. SORNA fails to recognize 
that the central registries would have no information but for the 
information provided by local law enforcement agencies which actually 
register the offenders. In order to meet the time restrictions required 
by SORNA on transfer of registration information from the local sex 
offender registrar to the central registry, local law enforcement must 
have the ability to transfer this information electronically. No 
provisions in the act address this essential element. Louisiana has 
addressed this by imposing a fee on all felony probationers which is 
paid into a technology fund to support the implementation of a web-
based program for the collection, storage and transfer of this data to 
our central registry at no cost to the tax payer. We not only believe 
we are substantially compliant with SORNA we believe we have far 
exceeded its goals.
    Respectfully, Attorney General Caldwell and I urge the members of 
this Subcommittee to consider an extension of the deadline for states 
to comply with the Act, the establishment of a task force comprised of 
prosecutors, law enforcement, state registries, corrections, experts in 
the field of sex offender management, victims and all other 
stakeholders in this complex issue to examine the practical effects of 
the Act on public safety and possible reform to address the concerns 
raised here and those recommended by the task force. Not to do so would 
jeopardize the viability of the overall goal of SORNA and would put 
states at imminent risk of losing vital BYRNE grant dollars for worthy 
law enforcement programs beginning July of 2009.
                               __________

    Mr. Scott. Thank you.
    Ms. Carter.

  TESTIMONY OF MADELINE M. CARTER, PRINCIPAL, CENTER FOR SEX 
OFFENDER MANAGEMENT, CENTER FOR EFFECTIVE PUBLIC POLICY, SILVER 
                           SPRING, MD

    Ms. Carter. Thank you.
    Good afternoon, Chairman Scott, and Members of the 
Committee. I want to thank you for convening this hearing and 
for offering me the privilege of speaking to you.
    I want to acknowledge the enormous respect I have for the 
other witnesses at this table. Each of us comes to this table 
with a unique background. As a result, we may see this issue of 
sex offender management through a different lens and perhaps 
have divergent thoughts about the most beneficial public policy 
approach. I am certain, however, that we all share the same 
goal, to prevent sexual victimization.
    I am a principal with a nonprofit organization. For 26 
years, we have worked with government officials across the 
country to advance sound policy solutions in criminal justice. 
Twelve years ago, we were awarded funds by the Justice 
Department to establish the Center for Sex Offender Management. 
I am its director.
    Our mission is to prevent further victimization by 
improving the management of adult and juvenile sex offenders. 
We have worked with professionals throughout the country to 
understand and to translate research into practice. Our goal is 
to support efforts to end sexual violence. As a professional, 
as a mother, and as the victim of an attempted rape when I was 
a youth, I, like you, have a major stake in the safety of 
victims and of potential victims. I have five points to share 
that I believe can guide us in our collective thinking on this 
matter.
    Point one, sex offender policy and practice should be 
evidence-based. Today, following three decades of extensive 
research, we have a wealth of knowledge about the factors 
associated with re-offense risk and methods to intervene with 
and to reduce that risk. This research should shape our public 
policy because it can result in fewer new crimes. It has shaped 
practice in local communities across the country for more than 
a decade. The results are promising and in need of ongoing 
support and study.
    Point two, not all sex offenders are alike. One of the 
fundamental problems in our field is that we tend to paint all 
sex offenders with the same brush. Professionals have long 
recognized key differences among them. These differences relate 
to the types of crimes they commit, to the victims they target, 
to their risk for re-offense, and to the types of interventions 
that will most likely reduce their risk.
    These differences have important implications. For example, 
among adult sex offenders, while some are extremely dangerous, 
others can be safely managed in the community. Research further 
distinguishes adult sex offenders from juveniles who are 
developmentally quite different from adults. These findings 
suggest that a one-size-fits-all approach is inappropriate. A 
more tailored approach is called for. I respectfully recommend 
that this Committee support further examination of the 
differences between these offenders and the interventions 
needed to prevent future crimes.
    Point three, risk assessment is an important tool in our 
management arsenal. A one-size-fits-all approach is not 
appropriate. We need a way to distinguish among offenders. 
Until recently, we had no choice but to categorize offenders 
primarily on the basis of the offenses they had committed. 
Risk-assessment instruments offer a scientifically based method 
to distinguish among individuals. Today, many States use 
actuarial tools to differentiate between offenders. I encourage 
you to establish a commission to examine the use of risk 
assessment to guide the tiering of sex offenders for the 
purposes of registration and notification.
    Point four, there is no silver bullet. We want desperately 
to find the silver bullet that will solve the problem, but 
there is no single answer to the problem of sexual violence. We 
have developed a comprehensive policy framework. It is built on 
research and a set of core values, the most fundamental of 
which is victim protection and safety. It acknowledges that 
there are many elements involved in effectively managing sex 
offenders. Research suggests that some of the strategies are 
more powerful in reducing risk than others.
    For example, the evidence suggests that a combination of 
sex-offender-specific treatment and community supervision can 
increase public safety. Thus far, the research on registration 
and notification has not demonstrated similar results. More 
study is needed. From a public policy perspective, we should 
invest our limited resources in those strategies that show 
promise for reducing re-offense and, at the very least, be 
judicious in our investment in options that do not.
    Point five, we should use research and experience to build 
our approach to reducing victimization. We know from experience 
that we can hold offenders accountable while providing support 
and safety to victims. Most importantly, we know we can reduce 
the likelihood of new sex crimes.
    To achieve those goals, we must be deliberate. Some of the 
efforts in the past in the name of public safety have proven 
ineffective. We should let go of those. Others hold promise for 
recidivism reduction, and we should embrace these.
    Let me conclude by reiterating that my goal is to prevent 
future sexual violence. To this end, I endorse efforts to 
reconsider any provisions of SORNA that are not supported by 
research, to advance policy around those strategies that are 
evidence-based and to expand our national research agenda in 
the area of sexual violence. Congress can provide important 
leadership to the Nation on this critical issue.
    I and my colleagues across the country would be most 
pleased to partner with you to understand how best to implement 
these approaches strategically to end sexual violence. Thank 
you.
    [The prepared statement of Ms. Carter follows:]

                Prepared Statement of Madeline M. Carter

    Good afternoon Chairman Scott and members of the Committee. My name 
is Madeline Carter. I want to begin by thanking the Committee for 
convening this hearing and for offering me the privilege of addressing 
you. I also want to acknowledge the enormous respect I have for the 
other witnesses who are speaking today. Each of us comes to this issue 
with a unique background and set of experiences--including law 
enforcement, prosecution, defense, and victim advocacy. As a result we 
may see the issue of sex offender management through different lenses 
and perhaps have divergent thoughts about the public policy approach 
that will result in the greatest benefit. I am certain of one thing 
however: that we all share the same goal-to prevent sexual 
victimization.
    Let me begin by saying a few words about my background. I am a 
Principal with a non-profit organization in Maryland. For 26 years we 
have worked with state and local government officials across the 
country to advance sound policy solutions within the criminal justice 
system. Nearly 12 years ago we were awarded funds by the Justice 
Department to establish the Center for Sex Offender Management. I have 
served as its director since that time.
    CSOM's mission is to enhance public safety by preventing further 
victimization through improving the management of adult and juvenile 
sex offenders. Over 12 years, we have produced nearly 40 policy and 
practice briefs and other resource documents; trained nearly 50,000 
professionals; and provided training and technical assistance to 
officials in almost every state. We do not conduct original research 
ourselves. Our role is to assist policymakers and practitioners in 
understanding the research and translating its findings into policy and 
practice.
    I want there to be no misunderstanding about the purpose of our 
efforts. We do not view ourselves as advocates for anything more than 
sound policy approaches that result in safer communities. Our goal is 
to support efforts to end sexual violence. I personally am deeply 
concerned about the threat posed by sexual violence. I am a 
professional in this field and also the mother of two children. I pray 
they never experience sexual assault. I am a friend to many who have, 
and as a young teenager I was the victim of an attempted rape by an 
individual that was described to me by police as most likely a serial 
rapist. Like you, I have a major stake in the safety of victims and 
potential victims and the safety of our communities.
    I would like to share with you five points that I believe can guide 
our collective thinking on this matter.
    Point #1: Sex offender policy and practice should be evidence 
based. When empirical research is applied to both policy and 
professional practice it is referred to as evidence-based policy or 
practice. Today, we have a wealth of knowledge about the factors 
associated with recidivism risk, and methods to intervene with and 
reduce that risk. Important and extensive research regarding criminal 
offenders, including sex offenders, has been conducted over the past 
three decades.
    Within the context of this hearing it is not possible to reasonably 
review all of the significant findings, although I and perhaps some of 
my colleagues will touch upon a few major findings. The point I want to 
make at this moment, however, is an important and over-arching one: 
that there is a wide body of research that can and should shape public 
policy because it can increase public safety by reducing new crimes, 
including sexual offenses.
    This research has shaped practice in local communities across this 
country over the last decade or more. The results are promising and 
need ongoing support and evaluative study.
    Point #2: Not all sex offenders are alike. Perhaps one of the most 
illuminating research findings relates to the label ``sex offender.'' 
One of the fundamental problems in our field is that we tend to paint 
all sex offenders with the same brush when professionals in the field 
have long recognized key differences among these offenders. These 
differences relate to the types of crimes they commit and the victims 
they target, the pathways that lead to their abusive behavior, the 
degree to which they are motivated to change, their risk for 
recidivism, and the types of interventions that will most likely reduce 
their risk for reoffense.
    These key differences have important implications. For example, 
among adult sex offenders, research tells us that some are at higher 
risk to reoffend than others. While some are extremely dangerous others 
can be safely managed in the community. Research further distinguishes 
adult sex offenders from their juvenile counterparts: Juveniles are 
developmentally different, have lower recidivism rates, and seem to 
respond well to treatment.
    These research findings suggest that a ``one size fits all'' 
approach to sex offender policy is inappropriate. Instead, a more 
tailored and strategic approach is called for.
    I respectfully recommend that this Committee support further 
examination of the differences between juvenile and adult sex 
offenders, and the treatment, supervision, and other supports needed to 
prevent specific sub-populations of offenders from committing new 
crimes.
    Point #3: Risk assessment is an important tool in our management 
arsenal. If a one size fits all approach is not appropriate, we need a 
way to distinguish among sex offenders. Until recently, we had no 
choice but to categorize offenders primarily on the basis of the 
specific offense they had committed. Risk assessment instruments offer 
a scientifically-based method to distinguish important differences 
among individuals. While these tools are not perfect, they have been 
consistently demonstrated to be more reliable than professional 
judgment.
    Given the significant advances in research-both in terms of our 
understanding that sex offenders are not all alike, and in terms of our 
ability to distinguish sex offenders from one another through the use 
of risk assessment tools--a tailored approach to sex offender 
management, based upon risk to reoffend, should be employed to all of 
our sex offender management strategies.
    The road to moving the criminal justice system from an offense-
based to a risk based system, not only for sex offenders but also with 
other offender types, has been a long one. Today, many states use 
actuarial risk assessment to differentiate between offenders; resource 
allocation and management strategies are deployed accordingly. I 
encourage this Committee to consider establishing a commission to 
examine the use of actuarial risk assessment tools to guide the tiering 
of sex offenders for registration and notification purposes.
    Point #4: There is no silver bullet. We want desperately to find 
the ``silver bullet'' that will solve this problem, but there are no 
silver bullets--there is no single answer to the problem of sexual 
violence. It is much too complicated for any one solution.
    CSOM has developed a model policy framework for sex offender 
management. We call it the Comprehensive Approach. It is built on solid 
research and a set of core values, the most fundamental of which is 
that our efforts should focus squarely on victim protection and safety. 
The Comprehensive Approach acknowledges that there are many elements 
involved in an effective approach to protecting public safety: thorough 
investigative practices; appropriate charging and plea negotiations; 
informed sentencing; and management practices based in research around 
assessment, treatment, and institutional and community management. 
Among these elements are registration and notification. Research 
suggests that some of the strategies that we have at our disposal are 
more powerful tools in reducing recidivism than others. Admittedly the 
research is not yet complete; there is still much we do not know. But 
thus far, the evidence suggests that a combination of sex offender 
specific treatment and community based supervision can increase public 
safety by reducing new sex crimes. Thus far the research on 
registration and notification has not demonstrated the same results. 
Therefore, the research suggests that we cannot rely on this as our 
only strategy, and it also suggests that we should invest our limited 
resources in those strategies that show promise for greater public 
safety by reducing new sex crimes and, at the very least, be judicious 
in our investment in options that do not.
    Point #5: We should use the lessons of research and experience to 
build a better, stronger approach to reducing victimization. There was 
a time not too long ago when little was known about sex offenders. I 
still remember it well. When we established CSOM, the research was 
scant. The professional opinions were oftentimes in sharp disagreement. 
Our first step was to bring all the voices in the field together. With 
their help we identified promising practices, synthesized the research, 
and built an approach that offered the promise of reducing future 
victimization. As we have learned more, the approach has evolved. We 
still have more to learn.
    But some things we already know. We know that some of the efforts 
we have made in the past in the name of public safety have proven 
ineffective. We should let go of those. Others hold promise for 
recidivism reduction. We should embrace these.
    We know now from more than a decade of experience working with 
communities all across the country that we can hold offenders 
accountable; we can provide victims with support and safety, and 
partner with them in our efforts to increase public safety. Most 
importantly, we know from research that we can reduce the likelihood of 
new sex crimes and the harm that it causes. But to achieve these goals, 
we must be thoughtful and deliberate in our strategy. We must bring all 
of the stakeholders together. We must evaluate the extent to which each 
community's efforts align with research. We must provide information 
and training to professionals; educate our communities; and fully 
invest in strategies proven effective. These are the lessons of more 
than a decade of work that guides us to meaningful solutions. These 
lessons are documented in several of the written materials I have 
supplied along with my testimony. I and my colleagues across the 
country would be most pleased to partner with you to understand how 
best to implement these approaches to sex offender management 
strategically on a national basis.
    In closing let me say that my first and only goal is to prevent 
future sexual violence. To this end, I support efforts to reconsider 
any provisions of SORNA that are not supported by research; to advance 
policy around those strategies that are evidence based; and to expand 
our national research agenda in the area of sexual violence prevention.
    Congress can provide important leadership to the nation on this 
critical issue. I thank you for your concern over this matter and look 
forward to joining forces with you to end sexual violence.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Allen.

    TESTIMONY OF ERNIE ALLEN, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN, 
                         ALEXANDRIA, VA

    Mr. Allen. Mr. Chairman, I have submitted written 
statement. With your permission, I will summarize briefly.
    As you know, the National Center was honored to have been 
one of the organizations consulted by bipartisan congressional 
leaders on the Adam Walsh Act, and we believe strongly today 
that this is vital legislation to keep America's children safe.
    We know how serious the problem is. We at the National 
Center have handled 667,000 reports of child sexual 
exploitation through our congressionally mandated cyber tip 
line. Our child victim identification program has reviewed in 
the past 5 years 21 million child pornography images and videos 
depicting the sexual abuse of children. Our analysis unit is 
receiving requests from State law enforcement, from the U.S. 
Marshal Service to help in the location of missing or 
noncompliant sex offenders.
    In our last survey of State sex offender registries a month 
or two ago, we found that there are today 673,989 sex offenders 
in this country required to register. Our estimate is that at 
least 100,000 of those offenders are noncompliant, many of them 
literally missing. Many States do not know how many offenders 
are noncompliant or are missing.
    We also partner with ICE, Immigration and Customs 
Enforcement, in an effort called Operation Predator, which has 
resulted in 12,000 arrests nationwide, 85 percent of whom are 
noncitizen sex offenders, 6,300 of whom have been deported.
    Congress passed the Adam Walsh Act, and we were supportive 
for one primary purpose, and that is to create a uniformed, 
consistent national approach to this problem. There is a 
stunning lack of consistency, resulting in gaps and cracks in 
the system which the most serious offenders exploit. By 
requiring States to enact more uniformed State laws, we felt 
that this would prevent more offenders from forum shopping in 
order to remain anonymous.
    The States and jurisdictions are trying as you have heard. 
Working with the SMART Office, 38 jurisdictions have submitted 
materials for review. Twenty-three have been granted 1-year 
extensions. A few States have announced that they have 
implemented SORNA, but only the SMART Office is authorized to 
make an official determination of that implementation.
    Our premise, our message to this Committee today, is very 
simple: As essential and historic as we believe the Adam Walsh 
Act is, it is not going to be effective without the 
appropriations necessary to implement it.
    When we first discussed this legislation, a prominent 
sponsor, an advocate in the Senate, said, ``This legislation is 
essential, but show me the money. If we do not fund it, it is 
meaningless.''
    From the beginning, everyone understood that these changes 
would be difficult and that the States would need help. The 
bill authorized that help and much more. The Congressional 
Budget Office scored a version of the act at more than $1 
billion over 5 years. In the 3 years since its passage, 
virtually none of those funds have been appropriated. There has 
been some funding through the Iraq supplemental to the U.S. 
Marshals, and the SMART Office has provided some grants to help 
with compliance and some training as well as some support for 
juvenile sex offender treatment. It is important to note that 
the failure to appropriate the funds happened due to larger 
issues and conflicts completely unrelated to the Adam Walsh 
Act.
    We are grateful to Chairman Alan Mollohan and to the 
Members of the House CGS Appropriations Committee and to 
Senator Barbara Mikulski and to Senator Richard Shelby, who 
have continuously provided seed money in the appropriations 
bills, but it has been 3 years since the passage of the Adam 
Walsh Act since there has really been an appropriation. The 
funding has not happened.
    Providing the funding, in our judgment, is the key to being 
able to implement this critical system fairly, objectively and 
thoroughly. However, with the compliance date looming and with 
essentially no funding having been provided to date, we believe 
it is imperative that Congress act to keep the Adam Walsh Act 
alive through extending the deadlines for compliance. We 
understand that resources are scarce and that there are many 
competing demands. However, it is hard to imagine a greater, 
more pressing priority.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Allen follows:]

                   Prepared Statement of Ernie Allen

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Lunsford.

  TESTIMONY OF MARK LUNSFORD, FATHER OF JESSICA LUNSFORD, THE 
    CHILD VICTIM OF A SEX OFFENSE AND MURDER, HOMASASSA, FL

    Mr. Lunsford. My name is Mark Lunsford.
    I am Jessica Lunsford's father. I turned in a statement 
explaining what happened to Jessie, and if you read through it, 
you will clearly see the failures in notification and 
registration and how my daughter's death became.
    John Couey, convicted sex offender, arrested 23 times or 
more in his 46 years of life. He took my little girl, raped her 
and put her in a trash bag, alive, and buried her alive. I am 
sure that, when she was dying, she was crying for me. I can 
still hear her cries. As a parent, I will never be able to get 
over the grief of knowing that she was only 150 yards away from 
her own bedroom while I prayed for her. Her death was a result 
of a system that failed her and us, for if we had tougher laws 
for registration and good programs for notification, this may 
have prevented her death.
    Although John Couey was on probation, his probation officer 
did not even know he was a convicted sex offender. The 
Sheriff's Department was advised by the Attorney General's 
Office 3 months before the kidnapping to round up all the 
absconded sex offenders. John Couey was on that list but never 
arrested until the death of my daughter.
    Through tougher sexual offender registration and tracking 
systems, properly funded and enforced, may have protected my 
daughter and will protect other children. In Florida, the law 
is so slack that the public is only notified of sex offenders 
when they move, and that is at the discretion of each Sheriff's 
Department how they notify you. The public is not notified when 
a sexual predator moves. So we need better notification for the 
public. We must know where every John Couey is so we can take 
the necessary steps to protect our children.
    In addition to the strict registration system, Congress 
must empower law enforcement to go after these guys. If law 
enforcement is not empowered and funded to go after these 
predators, the system fails us all again. Additionally, if we 
are not going to empower law enforcement, as has been the case 
in failing to fund the Adam Walsh Act, the registration and 
notification becomes that much more important so that fathers 
and mothers have the information they need to protect their 
children.
    How can we say that it will not work or does not work until 
we fund it properly and explore what tweaks we need to make to 
it?
    John Couey, a two-time convicted sex offender, on 
probation, wore a tracking device. During his time of wearing 
that tracking device, we always knew where he was at. He 
registered. He played by the rules. He did everything that he 
was supposed to do. In November, when they took the tracking 
device off of him, he had absconded. It is simple. You as 
legislators and all organizations, regardless of what 
organization you are with, all believe in one thing, and that 
is the rights of children. These children have the right to a 
safe and protected life, and until we implement the right 
funding and the right programs for notification and 
registration, our children will continue to pay the price. This 
is not fair. There is not anything fair about it at all. Why do 
the children have to pay the price for our mistakes? Thank you.
    [The prepared statement of Mr. Lunsford follows:]

                  Prepared Statement of Mark Lunsford

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

 TESTIMONY OF ROBERT SHILLING, SEATTLE POLICE DEPARTMENT, SEX 
AND KIDNAPPING OFFENDER DETAIL, SEXUAL ASSAULT AND CHILD ABUSE 
                       UNIT, SEATTLE, WA

    Mr. Shilling. Mr. Chairman, Committee Members, guests, I'm 
honored to be given the opportunity to testify today. My name 
is Bob Shilling, and I'm a 29-year veteran of the Seattle 
Police Department. I've spent the last 19 years as the 
detective in the Special Victims Unit, Sex and Kidnapping 
Offender Detail. I've written or coauthored 12 pieces of sex 
offender legislation that have been passed into law in 
Washington State, and testified on the Community Protection Act 
of 1990, which became the first community notification law in 
the United States. I'm the only municipal law enforcement 
officer in the United States who is a member of the Interpol 
Specialists Group on Crimes Against Children. I currently serve 
as Chair of the Sex Offender Management Theme Group.
    My experience protecting the public from sex offenders 
spans two decades. It is not a job to me, it is a passion. 
Perhaps my most significant experience related to this work 
comes from the fact that I'm a survivor of childhood sexual 
abuse. The abuse spanned a 4-year period and, without question, 
marks the darkest days of my life. I have dedicated my life to 
doing whatever I can to stop sexual abuse not only in this 
country, but also around the world.
    Prior to becoming a detective in the Special Victims Unit, 
I, like many citizens, believed the only way to manage sex 
offenders was to put them on a distant island where they 
couldn't victimize anyone else. My feelings were naive, yet a 
heartfelt response to a complex problem. My focus then and now 
has always been victim centered. What can we do to ensure that 
we don't have additional victims? What can we do to stop sexual 
abuse before it happens? What has research taught us? How do we 
hold sex offenders accountable by making sure they have the 
tools to succeed once they are released from incarceration?
    Washington State has been in the national forefront of sex 
offender management and in ensuring public safety from sex 
crimes. We have an end-of-sentence review committee that looks 
at the risk each sex offender poses to the community prior to 
the release from prison. We have a highly regarded sex offender 
treatment program within the prison system and statewide 
certification of sex offender treatment providers in private 
practice. We do actuarial risk assessments on each of our sex 
offenders in an effort to identify those who are the most 
likely to reoffend. This helps put precious public safety 
resources where they are needed the most, monitoring the 
highest-risk offenders.
    We proactively educate our community about sex offenders. 
We want the public to be able to protect themselves from known 
sex offenders, as well as those who haven't been caught yet. We 
also educate the community that it is in the best interest of 
public safety to be invested in the offender's success when 
they are released.
    I've trained law enforcement officers from all over the 
world in the art of educating the community about sex 
offenders. I've stated you cannot do community notification 
without community education. To do so is like smoking a 
cigarette while standing in a pool of gasoline. Without 
education, there is misinformation. Misinformation leads to 
heightened anxiety, which in some cases leads to vigilantism. 
The community deserves to know who the high-risk sex offenders 
are in the community, about the relatively low sex offender 
recidivism rates, and what research tells us. Citizens can and 
will act responsibly if we are honest with them. They are 
better able to protect themselves and their loved ones when we 
educate them about sex offenders.
    I ask that you consider how the Sex Offender Registration 
and Notification Act, SORNA, impacts the public safety aims of 
effectively managing sex offenders in the community. The SORNA 
does not mandate community education as a component of 
community notification. This is a recipe for disaster and 
leaves citizens trying to sort out fact from myth, truth from 
emotion, and what to do next. This creates public safety 
concerns and does not have the citizens invested in offenders' 
success. It has the opposite effect.
    The SORNA mandates offense-based tiering, which is a faulty 
alternative to actuarial-based tiering used in over 20 States. 
Citizens have grown used to level 1 sex offenders as being low 
risk, level 2 moderate risk, and level 3 high risk. Under 
SORNA, most sex offenders will be Tier III. That will cause 
great confusion and anxiety for the citizens as they believe 
each of these offenders has a high risk to reoffend.
    That is just not true. Sex offenders differ greatly in 
their level of impulsiveness, persistence, risk to the 
community, and their desire to change their deviant behavior. 
The assigning sex offender tiers based on crime and conviction 
tells us very little about who this sex offender is and what 
his or her risk for reoffense may be. In Washington State, I 
have the ability to aggravate someone's risk level if dynamic 
risk factors indicate an escalation in risky behavior. I won't 
have that ability under SORNA. It is not an effective way of 
doing business with the public.
    Finally, I ask that you consider the retroactivity aspect 
of the SORNA. Research tells us that most sex offenders do not 
reoffend sexually over time. In the 2004 study done by the 
preeminent researchers Harris and Hanson, with a sample of 
4,724 sex offenders over a 15-year follow-up period, 73 percent 
of sexual offenders had not been charged with or convicted of 
another sexual offense. Under the SORNA, law enforcement will 
be responsible for reviewing the criminal history of anyone 
brought back into the system, even for a nonsexual criminal 
offense. If they were once convicted of a sex offense, 
regardless of how long ago that conviction was, the offender 
will be required to register as a sex offender. This will be 
very labor-intensive and costly. Our time and efforts and 
resources are more effectively spent focusing on moderate- to 
high-risk sex offenders, not sex offenders who committed their 
crime 25 or 30 years ago and have not reoffended in a sexual 
way.
    Thank you for your time and your thoughtful consideration.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Schilling follows:]

                   Prepared Statement of Bob Shilling

    Mr. Chairman, Committee Members, Guests, I am honored to be given 
the opportunity to testify today. My name is Bob Shilling. I am a 
twenty-nine year veteran of the Seattle Police Department. I have spent 
the last nineteen years as a detective in the Special Victim's Unit, 
Sex and Kidnapping Offender Detail. I have written or co-authored 12 
pieces of sex offender legislation that have been passed into law in 
Washington State, and testified on the Community Protection Act of 
1990, which became the first community notification law in the United 
States. I am the only municipal law enforcement officer in the United 
States who is a member of the Interpol Specialists Group on Crimes 
Against Children. I currently serve as Chair of the Sex Offender 
Management Theme Group.
    My experience in protecting the public from sex offenders spans two 
decades. It's not a job to me it's a passion. Perhaps my most 
significant experience related to this work comes from the fact that I 
am a survivor of childhood sexual abuse. The abuse spanned a four-year 
period and without question marks the darkest days of my life. I have 
dedicated my life to doing whatever I can to stop sexual abuse, not 
only in this country, but also around the world.
    Prior to becoming a detective in the Special Victims Unit, I like 
many citizens, believed the only way to manage sex offenders was to put 
them on a distant island where they couldn't victimize anyone else. My 
feelings were naive, yet a heartfelt response to a very complex 
problem. My focus then and now has always been victim centered. What 
can we do to ensure we don't have additional victims? What can we do to 
stop sexual abuse before it happens? What has research taught us? How 
do we hold sex offenders accountable while making sure they have the 
tools to succeed once they are released from incarceration?
    Washington State has been in the national forefront of sex offender 
management and in ensuring public safety from sex crimes. We have an 
End of Sentence Review Committee that looks at the risk each sex 
offender poses to the community prior to their release from prison. We 
have a highly regarded sex offender treatment program within the prison 
system, and statewide certification of sex offender treatment providers 
in private practice. We do actuarial risk assessments on each of our 
sex offenders in an effort to identify those who are most likely to re-
offend. This helps put precious public safety resources where they are 
needed the most; monitoring the highest risk offenders. We proactively 
educate our community about sex offenders. We want the public to be 
able to protect themselves from known sex offenders, as well as those 
who haven't been caught yet. We also educate the community that it's in 
the best interest of public safety to be invested in the offender's 
success when they are released.
    I've trained law enforcement officers from all over the world in 
the art of educating the community about sex offenders. I've stated: 
``You can't do community notification without community education. To 
do so is like smoking a cigarette while standing in a pool of 
gasoline.'' Without education there's misinformation. Misinformation 
leads to heightened anxiety, which in some cases, leads to vigilantism. 
The community deserves to know who the high-risk sex offenders are in 
the community, about the relatively low sex offender recidivism rates, 
and what research tells us. Citizens can and will act responsibly if we 
are honest with them. They are better able to protect themselves and 
their loved ones when we educate them about sex offenders.
    I ask that you consider how the Sex Offender Registration and 
Notification Act (SORNA) impacts the public safety aims of effectively 
managing sex offenders in the community. The SORNA does not mandate 
community education as a component of community notification. This is a 
recipe for disaster and leaves citizens trying to sort out fact from 
myth, truth from emotion, and what to do next. This creates public 
safety concerns and does not have the citizens invested in offender 
success. It has the opposite effect.
    The SORNA mandates offense based tiering, which is a faulty 
alternative to actuarial risk based tiering used in over 20 states. 
Citizens have grown used to level one sex offenders being low risk, 
level 2 moderate risk, and level three high risk. Under SORNA, most sex 
offenders will be tier 3. That will cause great confusion and anxiety 
for the citizens, as they believe each of these offenders is a high 
risk to re-offend. That just is not true. Sex offenders differ greatly 
in their level of impulsiveness, persistence, risk to the community, 
and their desire to change their deviant behavior. Assigning sex 
offender tiers based on crime of conviction tells us very little about 
who this sex offender is and what his or her risk for re-offense may 
be. In Washington State, I have the ability to aggravate someone's risk 
level if dynamic risk factors indicate an escalation in risky behavior. 
I won't have that ability under SORNA. Their tier is their tier. It is 
not an effective way of doing business with the public.
    Research tells us that 90% of victims under age 12 knew their 
abuser. That number is 66% when the victim is between 18 and 29 years 
old. (Tjaden & Thoennes 2000) Under the SORNA, all sex offenders will 
be subject to broad based Internet dissemination (community 
notification) regardless of risk. When we know that most victims of 
sexual abuse know their abuser, and in a large proportion of cases it's 
a family member, Internet notification increases the likelihood that 
the victim will be identified. Victims tell us that their greatest 
concerns are their family knowing about the assault (71%), and people 
outside the family knowing about the assault (68%). (Kilpatrick, 
Edmunds, Seymour (1992) Rape in America.) The last thing we want to do 
is create disincentives to victims and their families to report.
    Finally, I ask you to consider the retroactivity aspect of the 
SORNA. Research tells us that most sex offenders do not re-offend 
sexually over time. In a 2004 study done by the pre-eminent researchers 
Harris and Hanson, with a sample of 4,724 sex offenders over a 15-year 
follow-up period, ``73% of sexual offenders had not been charged with 
or convicted of another sexual offense.'' Under the SORNA, law 
enforcement will be responsible for reviewing the criminal history of 
anyone brought back into the system even for a non-sexual criminal 
offense. If they were once convicted of a sex offense, regardless of 
how long ago that conviction was, the offender will be required to 
register as a sex offender. This will be very labor intensive and 
costly. Our time, efforts, and resources are more effectively spent 
focusing on moderate to high-risk sex offenders, not sex offenders who 
committed their sex crime 25 or 30 years ago have not re-offended in a 
sexual way.
    Thank you for your time and your thoughtful consideration.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Ms. Borror.

TESTIMONY OF AMY BORROR, PUBLIC INFORMATION OFFICER, OFFICE OF 
             THE OHIO PUBLIC DEFENDER, COLUMBUS, OH

    Ms. Borror. Thank you, Mr. Chairman and Members of the 
Subcommittee. The Office of the Ohio Public Defender is, of 
course, concerned about the constitutional rights of our 
clients, but we are also concerned about obstacles that prevent 
our clients from leading crime-free lives. We work with law 
enforcement, prosecutors, victims groups, treatment providers 
and child advocates on this issue because we are all committed 
to a common goal: reducing the incidence of sexual abuse in our 
society. And personally, as someone who has several friends who 
have been victims of sexual abuse, I am concerned with not just 
the stated goals of policies aimed at improving public safety, 
but also with the practical effects those policies have on the 
safety of my loved ones.
    Without a doubt, the Adam Walsh act is well intentioned, 
but the practical effects of SORNA contravene the act's well-
intended goals. In the 15 months since Ohio enacted Senate bill 
10, its attempt to implement the Adam Walsh Act, at least 6,352 
petitions have been filed challenging the new law. Ohio's 
courts of appeals have issued decisions in at least 59 cases. 
The Buckeye State's Sheriffs' Association estimates that the 
new law has increased sheriffs' workloads by 60 percent.
    County courts and prosecutors have interpreted the new law 
differently, and many courts have stayed enforcement of the law 
until the Ohio Supreme Court rules on its constitutionality.
    The Adam Walsh Act, which is intended to create uniformity 
in sex offender registration across States, has instead 
resulted in tremendous variation across Ohio's counties. Prior 
to adopting Senate bill 10, Ohio had a risk-based 
classification system. That had resulted in a registry that 
closely resembled what research tells us about sex offender 
recidivism. The vast majority of offenders were in the lower 
two tiers, and only 18 percent were labeled as sexual predators 
found by a judge to be likely to reoffend. Ohio's registry now 
includes 54 percent of offenders in Tier III.
    Ohio's old registry was potentially a useful public safety 
tool. The 4,000 offenders labeled as sexual predators would 
rightly garner the most attention from the public and require 
the closest supervision by law enforcement. But now Ohio's 
registry includes more than 12,000 people in Tier III. Their 
propensity to reoffend is not known, but the public will 
perceive them as dangerous, and law enforcement must expend 
tremendous resources to supervise them.
    Under Ohio's old law, a person convicted of sexual 
imposition, a misdemeanor, might have been classified as a 
sexual predator if a judge found him likely to reoffend. Now, 
however, the judge is mandated to classify that person in Tier 
I. Instead of being able to properly label this high-risk 
offender, the court must instead wait until another offense is 
committed and another victim is created.
    Sex offender registration laws are supposed to be aimed at 
protecting the public from future crimes, but the Adam Walsh 
Act looks only at past offenses and labels offenders based on 
those, without considering what they're likely to do in the 
future. One of the primary objections to the Adam Walsh Act is 
the requirement that the States apply the law retroactively, 
but the act itself was not retroactive. It delegated authority 
to the Department of Justice to determine its applicability to 
those convicted prior to the law's enactment.
    Retroactive application presents separation of powers 
issues, as State legislatures, acting on a directive from the 
executive branch of the Federal Government, reverse decisions 
made by judges. And plea deals entered into before the act 
raise additional legal concerns. Applying the act retroactively 
subjects States to lengthy and expensive constitutional 
challenges that could be avoided by applying the act 
prospectively only.
    The act's inclusion of juveniles on the Internet registry 
is another cause of great concern. Neurological science shows 
us that children's brains are physically different from adults' 
brains. Treatment provided during this critical stage of 
development will impact the way a child's brain develops. As a 
result, juvenile sex offenders are especially amenable to 
treatment and significantly less likely to reoffend.
    Many juvenile sex offenders are intrafamilial. In these 
situations, the offender and the victim receive much-needed 
treatment only if their parents seek help. Undoubtedly, many 
parents will be unwilling to ask for help if doing so resigns 
one child to a lifetime of inclusion on an Internet registry. 
As a result, neither the offender or the victim will receive 
the treatment they need.
    Including children on an Internet registry also puts those 
children at risk for being targeted for abuse. A pedophile 
could use the on-line registry to find victims, as the registry 
provides him with the names, pictures and home addresses for 
children as young as 14. Many juvenile sex offenders were 
victims before they committed their offenses and are especially 
vulnerable to further victimization.
    The practical effects of the Adam Walsh Act contravene the 
act's well-intended goals. An act intended to unify registries 
across the country has instead placed an incredible burden on 
courts and law enforcement and created confusion from one 
jurisdiction to another. A law aimed at protecting children 
from sexual predators instead places thousands of juveniles on 
an on-line registry and into harm's way. A system meant to 
simplify sex offender classification has instead muddled the 
meaning of offenders' designations and lets the public to only 
speculate about which prior offenders might pose a future risk.
    Mr. Chairman and Members of the Subcommittee, thank you for 
this opportunity to testify today.
    [The prepared statement of Ms. Borror follows:]

                    Prepared Statement of Amy Borror

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you. And I want to thank all of our 
witnesses for their testimony.
    We'll now begin questions under the 5-minute rule, and I 
will recognize myself for 5 minutes.
    Ms. Carter, you indicated that we should be using--making 
decisions based on evidence. What is the evidence and what 
works and what doesn't work under SORNA?
    Ms. Carter.  Excuse me. Did you say under SORNA, or just 
generally?
    Mr. Scott. Well, I start with SORNA.
    Ms. Carter.  Okay. I will start with SORNA.
    Well, unfortunately, there has been very little study of 
the issue of registration and notification. There have been a 
handful of studies conducted across the country, and some of 
them have slightly conflicting results, but overall they have 
not demonstrated to be effective in terms of reducing 
recidivism risk among offenders.
    Mr. Scott. Are there any studies that show that 
notification or registration reduced the incidence of sexual 
abuse of children?
    Ms. Carter. Can I defer to one of my colleagues?
    Mr. Scott. Sure.
    Ms. Carter. Detective, do you want to talk about the 
Washington study?
    Mr. Shilling. There was a study done by the Washington 
State Institute for Public Policy that took a look at community 
notification and whether or not community notification worked. 
And what they found out is that it was statistically 
insignificant whether or not notification worked versus those 
who had reoffended without having been the subject of community 
notification. And so far that is the only study that I'm aware 
of that has been done taking a look at the actual aspects of 
community notification on whether it works or not.
    Mr. Scott. Thank you.
    Ms. Rogers, what does notification--what does notification 
mean in the regulations?
    Ms. Rogers. Community notification means that jurisdictions 
are required to make available to their citizens information 
when a sex offender comes into their community to live, go to 
school or work.
    Mr. Scott. And exactly how do you notify the community?
    Ms. Rogers. It is up to the discretion of the community, to 
the jurisdiction how they want to do that. It can be done 
through e-mail, registered mail, pamphlets, telephone. It is 
completely discretionary.
    Mr. Scott. When somebody moves into an area, how wide an 
area gets notified?
    Ms. Rogers. Again, that wasn't listed in the act. It is 
completely discretionary.
    Mr. Scott. The regulations don't speak to that?
    Ms. Rogers. No, they didn't. What we did was we put 
together a system where every individual could register up to 
five addresses that were of interest to them, and they could 
receive notification up to a 4-mile radius around each of those 
addresses whenever a sex offender registered within that 
radius.
    Mr. Scott. So you could sign up for notification. Would 
everyone in the 4-mile radius get notified when the person 
moves into the neighborhood?
    Ms. Rogers. Only the people who had signed up, if the 
community only had the community notification system that the 
SMART office set up. Many jurisdictions also have secondary 
systems of mailings, telephone, pamphlets, et cetera.
    Mr. Scott. If somebody is registered, do they have a 
tracking device?
    Ms. Rogers. It is not required under the act.
    Mr. Scott. Mr. Shilling, you indicated a need to 
prioritize. What did you mean by that?
    Mr. Shilling. We want to be able to target our resources 
toward the highest-risk offenders. They are the ones that have 
the greatest risk of reoffending. So using actuarial risk 
assessment models, we're able to target those offenders who are 
at highest risk to reoffend and make more visits on them than 
what even SORNA requires.
    Mr. Scott. Are there other things you can do other than 
notification and registration to reduce the chance that the 
children in the area and the neighborhood may be victimized?
    Mr. Shilling. Well, one of the things that I am a very firm 
believer in is in community education. And I believe that is 
how we have the best chance of preventing some of this, so that 
when we go out and do community education meeting, citizens see 
what the red flags are. I have done many, many meetings where 
people have come up to me afterwards and said, wow, I wish I 
had this information before.
    Mr. Scott. Is that just with known sex offenders who may be 
recidivating, or protecting yourself from sex offenders who 
might not have been already convicted?
    Mr. Shilling. When we do community education, we do it on 
sex offenders in general. We want to protect them from all sex 
offenders, not just the ones that they know about.
    Mr. Scott. Thank you.
    My time is expired. Mr. Gohmert.
    Mr. Gohmert. Thank you, Chairman.
    Well, taking some things up in order, Ms. Rogers, why did 
it take the SMART office 2 years to produce the SORNA 
guidelines? It doesn't sound very smart.
    Ms. Rogers. The SMART office had no staff besides myself 
and a detailee from the U.S. Attorney's Office until January of 
2008. On my own I was implementing SORNA, providing national 
training, and sorting technical assistance and, with the help 
of Office of Legal Policy, writing the proposed guidelines. 
They went out for public comment for 71 days during the summer 
of 2007. They were complete and went into review through the 
Department of Justice for the final guidelines in February of--
--
    Mr. Gohmert. Why were you so shorthanded all that time?
    Ms. Rogers. I had no staffing FTEs.
    Mr. Gohmert. You were shorthanded because you didn't have 
staffing. Yeah, I might have guessed that. But why did you have 
no staffing?
    Ms. Rogers. There were no available slots to hire anyone 
into. There was no funding.
    Mr. Gohmert. Okay. That's the bottom line.
    Ms. Devillier, we had a crime hearing down in New Orleans a 
couple of years ago, and I was shocked at that time. And I'm 
glad you're here because I'm curious if it is still going on. 
But having been a former judge, and we've got another former 
judge over here, I was shocked that there was a system in place 
in the Louisiana criminal system that a defense attorney could 
contact a judge unilaterally, ex parte, and seek to get a bond 
lowered for his client. And if the judge lowered it so that the 
defendant could make it, then the court of the judge that 
lowered it got a cut of the bond. Is that still in place? I was 
kind of surprised that existed anywhere. Is that system still 
in place where the court can get a cut of the bond they lower?
    Ms. Devillier. I really can't speak to that. Are you 
speaking in Orleans Parish?
    Mr. Gohmert. I understood it was a Louisiana law that 
allowed the ex parte communication and then the judge to get 
part of the bond. Or not the judge, no. It is the court. It is 
not the actual judge. But you're not aware?
    Ms. Devillier. I'm not aware.
    Mr. Gohmert. Well, with regard to the Louisiana sex 
offender registry, what would you require in a Louisiana system 
if you were making the law that would be different from what 
the SORNA requires?
    Ms. Devillier. Thank you for that question.
    Louisiana has drafted legislation----
    Mr. Gohmert. But I'm asking you personally. You're the 
witness here.
    Ms. Devillier. Well, I worked--I was one of the lead 
crafters----
    Mr. Gohmert. So they did exactly what you wanted then?
    Ms. Devillier. It is not exactly what I wanted. We tried to 
abide by some of the things that we didn't necessarily agree 
with.
    Mr. Gohmert. But I'm asking exactly what you wanted.
    Ms. Devillier. We have done in Louisiana the three tiers.
    Mr. Gohmert. But I'm asking exactly what you'd put in the 
registry if you were doing it.
    Ms. Devillier. What I would say to you is that I cannot 
speak to risk assessment versus offense-based. I certainly 
agree that risk assessment has----
    Mr. Gohmert. Well, you had mentioned, then--if you can't 
tell me, then let me ask you. You had said that you must look 
to the age of the victim, and even if that is not an element of 
the offense, does Louisiana require presentence investigation 
reports for a judge to consider in sentencing?
    Ms. Devillier. Well, it would depend on if there was a plea 
agreement. If there was a plea agreement, there would be no 
investigation.
    Mr. Gohmert. So you don't require them in all cases then?
    Ms. Devillier. I'm sorry?
    Mr. Gohmert. They are not required in all cases?
    Ms. Devillier. No, sir.
    Mr. Gohmert. In Texas, they were required in all cases. So 
there is no place that it would be part of the record what the 
victim's age was?
    Ms. Devillier. No, sir. That is not what I meant to say. If 
that's what you took----
    Mr. Gohmert. Well, you said even when it is not an element 
of the offense, how is that due process? As I understood, it 
was a rhetorical question. So you're saying that in the record 
there would be no age even for the victim?
    Ms. Devillier. No, sir. There would be--if the--in some 
cases the crimes in Louisiana don't require the age to be put 
in the bill of information. What the bill of information would 
tell you is that the victim has not attained the age of, say, 
16 or 15 or whatever the elements of the offense was. But my 
point there, sir, is that the guidelines require--whether or 
not it is in the bill of information or whether or not it is 
in--and I know that you having been a judge; you know the 
prosecutor will give a factual basis. So the age of the victim 
might be establishable not just through the bill of 
information, but through the factual basis.
    But my point was if you tie the tier to the actual age of 
the victim, you are tying my hands as a prosecutor to get a 
plea in a case when the 25-year registration period or the 
lifetime registration period is hampering a defendant's 
willingness to plead guilty in a difficult child sex case.
    Mr. Gohmert. But if you do agree, how is that not due 
process? You said it wasn't--or you said, how is that due 
process?
    Ms. Devillier. Well, because the age of the victim, if it 
is not alleged in the bill of information, it is not a fact 
that has been established in a court of law, because when----
    Mr. Gohmert. That's what I'm saying. It could be 
established in the court of law.
    Ms. Devillier. It could be.
    Mr. Gohmert. I mean, even in a presentence report, the 
parties--if somebody objects to what is in the presentence 
report, either side can object. There is due process in that 
process, right?
    Ms. Devillier. Right.
    No. I agree. If it is in the record. There are 
circumstances where due process would be afforded because that 
fact would be in the record and established on the record. But 
I will submit to you that there are many instances where that 
fact is not in the record.
    Mr. Gohmert. Okay. Thank you. I see my time has expired.
    Mr. Scott. The gentleman from Puerto Rico.
    Mr. Pierluisi. Thank you, Mr. Chairman. I have a couple of 
questions for Ms. Rogers.
    I kind of understood you to say or imply that a lot of 
States would be in compliance by July of this year. Is that so? 
Is that what you are----
    Ms. Rogers. No.
    Mr. Pierluisi. Okay. In your judgment or your expectation, 
how many States will be in compliance, roughly speaking, by 
July of this year?
    Ms. Rogers. Taking into consideration I left office January 
20th, I no longer am privy to the information coming into the 
office. There may be none. And the reason there may be none is 
because the guidelines came out in July of '08; there is much 
to be done; there is little to no funding in some 
jurisdictions; but also because every jurisdiction, State, 
territory and tribe knows that they have two 1-year extensions 
available to them, and they are all taking advantage of that 
situation. They know they don't need to be in compliance for 
2\1/2\ more years. As you push that compliance date down the 
line another year or 2 years, if this body decides to do that, 
then you won't see jurisdictions coming into compliance until 
that future date.
    Mr. Pierluisi. So as of January 20th, your sense is that if 
we extend this deadline by, let's say, a year, that you would 
have most of the States in compliance? Is that your sense? 
Based on what you know as of January 20th, based on what you 
know about what States were doing to comply, would you expect 
that States--most of the States, if not all, would be in 
compliance a year from July 2009?
    Ms. Rogers. I'm confused by your question because they 
already have two possible 1-year extensions to July of 2011. 
And I expect the jurisdictions of States and territories will 
be in compliance by that time based on my experience at the 
SMART office.
    Mr. Pierluisi. I see. What I was saying was if we extend 
the bar, the deadline we have, putting aside the fact that you 
can--the government can in its discretion extend those 
deadlines, if we just statutorily extend the deadline that we 
have right now, your expectation is that in about a year most 
States would be in compliance?
    Ms. Rogers. I think it is more realistic to expect the July 
2011 date. I think there is a lot to be done by a majority of 
jurisdictions.
    Mr. Pierluisi. So it is, like, about 2 years what you 
expect that we should wait for compliance to happen?
    Ms. Rogers. I do. I believe that the discussion to extend 
compliance is not ripe yet. As the 2011 date approaches, I 
think that you should take stock of how the jurisdictions are 
doing. The more time you provide, the longer people will take 
to comply. It is human nature. But I do believe that based on 
the structure that is currently set, jurisdictions are 
recognizing that they must be in compliance by July of 2011, 
and that is what they are working to, keeping in mind, many 
States, territories and tribes don't have legislative sessions 
annually. So there is a lot of roadblocks in the way that 
different jurisdictions have to get over in order to come into 
substantial compliance.
    Mr. Pierluisi. With respect to funding, do you have any 
ideas of ways in which the Federal Government could be funding 
at least partial--you know, partially these efforts?
    Ms. Rogers. I think that with the increased Byrne grant 
through the stimulus package, that will be a great benefit to 
the jurisdictions who receive Byrne grants. Most tribes do not, 
so that is problematic. Increased law enforcement will be very 
necessary. SORNA doesn't require visitations to different tiers 
of sex offenders. That is a jurisdictionally implemented 
requirement. And so if jurisdictions want to monitor certain 
sex offenders more than others, that is their discretion and 
their choice. But SORNA doesn't require it.
    But still more law enforcement to assist in registration 
procedures, address verification, which is, again, at the 
discretion of the jurisdiction, will be very helpful. 
Additional resources to allow for sex offenders to register 
quarterly, biannually or annually is necessary. Updating of 
computer systems and software to attach the National Sex 
Offender Public Website is beneficial. Some equipment will be 
necessary in order to facilitate the registration procedures.
    But many jurisdictions need to assess what they currently 
do and then modify the programs that are antiquated or no 
longer working to transfer them into programs that are better 
and applicable under SORNA, and I think when you have that 
transfer of resources, that many jurisdictions haven't 
considered, that you will find that it is not as expensive to 
implement SORNA as some jurisdictions say it is.
    Mr. Pierluisi. So I take it that this would be through 
discretionary grant programs, additional or new discretionary 
grant programs under the Byrne grant umbrella? That's how you 
would do it?
    Ms. Rogers. I would suspect that that would be how the 
SMART office would do that at this point in time.
    Mr. Pierluisi. I have no further questions at this point, 
Mr. Chairman.
    Mr. Scott. Thank you.
    The gentleman from Texas.
    Mr. Poe. Thank you, Mr. Chairman. I have a few questions 
for all of you, but I only have 5 minutes, so make your answers 
short.
    Ms. Rogers, is the bottom line money, or is there something 
else?
    Ms. Rogers. It is money, and it is also jurisdictions that 
feel they personally own the registration system they have, and 
they don't want to modify it. And it is a myopic opinion by 
jurisdictions that what they have is best, not recognizing that 
their system is very different than all the other systems, and 
we don't have a national standard.
    And I just need to add that prior to leaving the SMART 
office, the decision was made that Byrne grants would not be 
reduced for any jurisdictions as long as an extension was in 
force. So there is no Byrne grant reductions until July of 
2011.
    Mr. Poe. Ms. Devillier, is that the way you pronounce your 
last name?
    Ms. Devillier. Devillier.
    Mr. Poe. Okay. I apologize.
    Do you actually try sexual assault cases?
    Ms. Devillier. Yes, I do.
    Mr. Poe. How many have you tried?
    Ms. Devillier. Oh, good Lord, that is hard to say. But I've 
been handling sex crimes, been a prosecutor in total, but for 
the time I was a State representative, about 13 years.
    Mr. Poe. Have you tried cases where a child sexual assault 
victim was murdered?
    Ms. Devillier. No. I have tried murder cases where children 
were killed.
    Mr. Poe. Have you ever tried a sexual assault case where a 
child was murdered?
    Ms. Devillier. No, sir.
    Mr. Poe. All right. If I counted correctly during your 
testimony and the questions asked by Judge Gohmert, you made 
the phrase--or made the comment, this hampers me getting a 
plea.
    Ms. Devillier. Correct.
    Mr. Poe. I have never understood why people who called 
themselves trial lawyers, either prosecutors or defense 
lawyers, spend most of their time trying to plead out cases 
rather than get justice from a trial. That is just an 
observation. But it is an unfortunate phenomenon in our system 
where the goal is not justice, the goal is to get a plea. And 
I'm not so sure that those are the same.
    Mr. Allen, let me ask you your question, being in the 
position that you are in to keep up with missing and exploited 
children. And we've heard and we all know statistics can mean 
whatever we want them to mean, whether it is child sexual 
assault, child molesters reoffend at what percentage, whether 
it is 100 percent or 23 percent. Based on what you know, what 
is your opinion about a person that commits a sexual assault 
against a child? No matter what happens to them, whether they 
go to prison or they are put on some kind of supervision, they 
are reoffending.
    Mr. Allen. Well, I think my view is that there is no more 
heinous act that can be committed. My view is that most of 
those offenders do it not as a matter of lapse of judgment, but 
as a lifestyle. And I think it is very important at a minimum 
that we know where they are and what they are doing.
    And the other thing I would want to add to that is it was 
never anybody's suggestion that the Adam Walsh Act would be a 
panacea or the only legislation or the only apparatus in place 
to address these kind of problems. It doesn't preclude 
treatment. It doesn't preclude community education. What it was 
intended to do is to address what frankly we felt was a system 
in which there was a lack of communication, a lack of 
uniformity; the ability of the most serious offenders to game 
the system, to move from jurisdiction to jurisdiction out of 
the reach and touch. And what it was intended to do was to 
build a system so that at least we know where these offenders 
are and what they are doing.
    Mr. Poe. Would you agree there is a big difference in 
taking a risk on someone reoffending as a thief as opposed to 
someone that is a child molester?
    Mr. Allen. Absolutely. And, in fact----
    Mr. Poe. Do you think 23 percent would be too high even 
with child molesters?
    Mr. Allen. No question.
    Mr. Poe. The last question is to Mark. Thank you for being 
here, Mark. It is always hard for you to talk about Jessica.
    In my office I have the photographs of my four kids and my 
seven grandkids. And I have two pictures of other children that 
I think they are mine. One is Kevin Wanstrath, a 14-year-old 
that was murdered; and your daughter Jessie. I think it is 
there to remind me of why we are here.
    Do you think, Mark, based on these experts that have 
testified, based on what you have been doing, do you think we 
need to spend more money and effort to get the law enforced, or 
should we just back away with it because it is too hard?
    Mr. Lunsford. Well, I think what is going to happen--all 
right. If we back up because it is too hard, the children will 
pay the price. If we move forward and continue to try to figure 
out how we fix this problem, you might have a few people on the 
registry that might not belong there. So weigh it out. Do we 
register a man that might not be as guilty as we think he is, 
or do we let a child die?
    I mean, I think we have to go with going to go with more 
reg--better registration and notification when we have to. The 
only person that is going to make a sacrifice is maybe somebody 
who doesn't belong there. But if we don't get tougher 
registration and better notification, another child will die.
    Mr. Poe. Thank you, Mr. Chairman. I yield back.
    Mr. Scott. The gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
holding this hearing. And let me, first of all, of course, 
acknowledge my friend Ernie Allen and the work that we've done 
together, and to thank Mr. Lunsford, Mr. Smart who is in the 
audience, and Mr. Walsh, who have become the faces, even though 
there are many other parents, of what has to be the most 
heinous, if you will, call that you might have gotten based 
upon the most heinous act that anyone could do.
    I happen to believe in that phrase that where there is a 
will, there is a way. And frankly, Mr. Lunsford, I know that if 
someone was 14, you might be open-minded to some different 
framework, and I can tell that. But we were not in your shoes, 
but we lived your horrific experience, and let me just be very 
frank, I couldn't get through the television to help you out. 
Once they described the individual who I truly believed has the 
rights--and certainly as sitting on this Committee, I wouldn't 
want to deny that individual due process. But I couldn't get 
through the television. Why? Because of their history, because 
of what they had done, and seemingly the ``smirkness'' of ``I 
have done it again.''
    So I really think that we have to find the balance, and I 
think it is important that the post powerful Nation in the 
world still today, in spite of all of our challenges, that we 
are sitting here and could give the answer, that we can't find 
a way.
    Let me quickly ask the State of Louisiana, are you in 
compliance now?
    Ms. Devillier. No, ma'am.
    Ms. Jackson Lee. Are you working to come in compliance?
    Ms. Devillier. We've been working since 2006, since the 
passage of the act, diligently to try to come into compliance.
    Ms. Jackson Lee. What is keeping you from coming into 
compliance?
    Ms. Devillier. What--because we believe that what the 
guidelines require for compliance is problematic in----
    Ms. Jackson Lee. Such as? Such as?
    Ms. Devillier. With regard--such as the requirement that 
you look at the underlying facts of the offense rather than the 
elements of the offense in order to decide what tier the person 
fits into. And the example I give is as a prosecutor, I have 
tried many child sex cases----
    Ms. Jackson Lee. Can you go quickly, because I have 
questions. Just give me one underlying factor.
    Ms. Devillier. One underlying factor would be that the 
guidelines say you have to look at the underlying facts of the 
offense, whether or not it is an element of the offense, the 
age is the element of the offense, which ties my hands----
    Ms. Jackson Lee. The age of the victim?
    Ms. Devillier. The age of the victim is controlling.
    Ms. Jackson Lee. If we gave you a staff person, and that 
person was funded, or a team of three, would that help you?
    Ms. Devillier. No, ma'am.
    Ms. Jackson Lee. That would not help you. What would help 
you then?
    Ms. Devillier. We have issues with the policies or the 
actual requirements themselves that are in the guidelines.
    Ms. Jackson Lee. All right. Mr. Allen, I think you've been 
over those bills quite frequently. Is there anything that you 
think we should sacrifice in these legislative initiatives to 
help Louisiana? And they are just here being representative of 
other States that are not in compliance. Anything that you 
think that we should be looking at?
    Mr. Allen. A couple of things, Congresswoman. One is the 
act. As I hear the primary concerns that Ms. Devillier has, 
they are with the guidelines, not with the law. More with the 
guidelines than the law.
    Ms. Jackson Lee. Which are the regulatory aspect of how 
they've been interpreted.
    Mr. Allen. Regulatory aspects can be addressed.
    Secondly, in the consideration of the law, there was a 
massive amount of compromise that took place. Certainly we are 
not opposed to modest changes--for example, I remember Senator 
Kennedy was concerned about provisions in the law that might 
conflict with State constitutional protections. So there is a 
provision in the law that where that something in violation of 
State constitution----
    Ms. Jackson Lee. Tenth amendment.
    Mr. Allen [continuing]. That the State is able to comply 
otherwise. So I think there are minor changes that could be 
made.
    Ms. Jackson Lee. You made a very good point. Let me pose 
this question to, I think, Amy Borror. And let me say this: I 
believe--I think the Chairman has presented himself very open-
minded. Let me be open-minded, but with this framework. I'm not 
so sure that I would not be pushing to shorten the compliance 
time. I think that the longer you let the kid out of the house 
and don't give him a curfew, they will be staying there even 
longer. And you can be assured that States are going to stay 
even longer past 2011.
    The assistant attorney general from Louisiana has indicated 
that I can could give her staff, I could give her everything, 
and she is not able to do it still. So there may be a reason to 
go back to the Department of Justice to asses these guidelines, 
these layers of elements.
    And I do think we have to consider the 14-year-old that is 
caught with a girl and gets listed as a sex offender, and that 
happens, and both of them get caught up, but the boy obviously 
usually is the one. And I see Mr. Lunsford understanding what 
I'm saying. And as a country sophisticated as we are, why can't 
we handle that?
    Let me ask Ms. Borror what your ills are with where we are 
today at this point.
    Ms. Borror. I think it is important to remember that the 
discussions we are having today about extending the deadline, 
just that enough--just that is not enough. The reason we are 
asking for this extension of the deadline is we believe there 
are issues underlying that need to be addressed, and we want 
the extension in order to give us enough time to address those. 
And to go back----
    Ms. Jackson Lee. Is one of them the whole issue of 
juveniles, or is it guidelines as well, the way they have 
written the guidelines?
    Ms. Borror. It is both. Several States, including Ohio, 
have concerns about the act's application to juveniles. But I 
think the guidelines are a big part, too. The legislation, the 
Adam Walsh Act, required substantial compliance, And 
substantial compliance is generally recognized as somewhere 
between 51 percent and 99 percent compliance, more compliant 
than not, but not 100 percent. One hundred percent compliant is 
generally known as strict compliance. That is what is required 
by the guidelines, when the Federal legislation required only 
substantial compliance.
    Ms. Jackson Lee. Well, let me--Mr. Chairman, if I might 
just finish. I ask unanimous consent for an additional minute.
    Mr. Scott. We are going to have another round if you wanted 
to. If it just another minute, we'll give you another minute. 
If you want another round, we're having another round.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I'll take the 
additional minute for reasons of having to be in a meeting in 
my office, but I thank the Chairman very much for his 
indulgence.
    I can't let the State of Louisiana go by without carrying a 
message by it, and you're very well representing the States. 
I'm not pointing out, but I couldn't let you go by without 
saying to you that I am hoping that we have a chance to look at 
Jena 6 again, because I think that is certainly something that 
you could certainly fix for me.
    But let me just conclude on this point: Ohio has been doing 
all they could, as I understand, to be in compliance. To the 
panelists, I'm not necessarily--and I will probably overrun on 
this--wanting to give an extension. I am willing and I would 
like to see the guidelines clarified to help States like Ohio 
who are working every day to try to comply.
    The other aspect of it is I would like to give money on the 
enforcement side, but I would also like to increase the 
punitive measures, because we give States a lot of money. We 
give them the Byrne grants, and I don't think there will be any 
fire under their feet unless they can see a larger amount of 
monies being lost, Federal funds, because they have not 
complied.
    And I end, Mr. Chairman, on the note of what Mr. Lunsford 
has said. What we don't do here today and fix this problem, a 
child will be victimized tomorrow. That is not something that I 
want on my watch, and I want to thank all of you for being here 
today.
    Mr. Chairman, I thank you for yielding to me, and I look 
forward to working with you and working with our panelists to 
get this right.
    I yield back.
    Mr. Scott. Thank you.
    We'll have another round of questions. Mr. Allen, you 
indicated that the State constitutional difficulties--did you 
say were an exception or could be?
    Mr. Allen. My understanding is it could be.
    Mr. Scott. So we would have to change the law to allow that 
to be an exception if the State couldn't comply with SORNA 
because their supreme court essentially prevented them from 
coming into compliance. That should be an exemption, but it is 
not now. Is that----
    Mr. Allen. It is now. It was written into the original act. 
Specifically it is a request to Senator Kennedy.
    Mr. Scott. You indicated the recidivism rate. This isn't 
really a matter of this particular hearing, but when we 
abolished parole, we had to let everybody out at the same time, 
ready or not, here they come; whereas under the parole system, 
you could essentially hold people, the ones you wanted to, 
about three times longer than average. Some would get out 
early, some would get out longer. But those who are still--by 
every calculation still a risk to society have to be sprung out 
like everybody else. And so long as we have this what I call 
half truth in sentencing, that is nobody gets out early, you 
also can't keep them longer either. That is the other half of 
the truth.
    So one of the problems we have with the recidivism rate, 
particularly those by any calculation still pose a present 
danger to society, still have to get sprung out like everybody 
else.
    Ms. Rogers, we have had a couple of people indicate that 
there has been no evidence to show that the registration and 
notification have had the evidence of reducing crimes. Do you 
want to respond to that?
    Ms. Rogers. I do. How do you measure how many children have 
not been abused? How do you conduct a study on that? How do we 
know how effective the registry is? What we know is that we had 
over 5 million hits to the registry last year, and over 772 
million sex offender pages were accessed. So we know people are 
interested. We know that people want to protect themselves. We 
cannot do a study on how many children are now safe and alive.
    Mr. Scott. I'm hearing that you have no studies that show 
the reduction. Mr. Shilling suggested that there were studies 
showing where you had registration compared to where you didn't 
have registration, and the difference was insignificant.
    Ms. Rogers. There are currently studies at the SMART office 
funded through NIJ to identify the benefits of registration. 
Those are not completed. We funded those in 2007.
    Mr. Scott. Okay. You indicated that consensual sexual 
activity amongst teenagers was not a matter subject to 
registration?
    Ms. Rogers. That's correct. It is section 16115(c).
    Mr. Scott. And if a 19-year-old more than 4 years older 
than a 15-year-old had consensual sex, that would require a 
lifetime registration?
    Ms. Rogers. If there were more than 4 years between the two 
juveniles?
    Mr. Scott. Right. One 19 and one 15. You add up the months, 
more than 4 years.
    Ms. Rogers. That would require--that may require 
registration, yes.
    Mr. Scott. For how long?
    Ms. Rogers. It would depend on the act.
    Mr. Scott. Consensual sex.
    Ms. Rogers. Consensual sex between two--with a minor could 
possibly be a 25-year registration. It may not be a registrable 
offense, though. It depends.
    Mr. Scott. Depends on what, more than 4 years older?
    Ms. Rogers. It depends how it is charged in the 
jurisdiction. It depends on whether it is a misdemeanor or a 
felony. If it is a misdemeanor, it is not a registrable 
offense. For 25 years, it would be a 10-year registration.
    Mr. Scott. But it would require registration?
    Ms. Rogers. Most likely, yes.
    Mr. Scott. This could be two high school students, 
consensual sex?
    Ms. Rogers. Probably not, because there wouldn't be more 
than 4 years between two high school students.
    Mr. Scott. A 19-year-old and a 15-year-old.
    Ms. Rogers. Then yes.
    Mr. Scott. Okay. Mr. Devillier, you were asked about plea 
agreements, and sometimes it occurs to me that all the 
defendant knows is they did it; they don't know that you don't 
have a case. Do you have any cases where you are able to 
extract a guilty plea when, in fact, if you were forced to go 
to court, you couldn't have gotten a conviction at all?
    Ms. Devillier. What I do know, and I am very--I have lots 
of trials under my belt, and I'm very most happy when I'm in 
trial. My purpose for bringing out the plea agreement thing, 
sir, is, yes, there are--not that--I would not bring a case 
that I could not prove. The problem is you have a child. In 
child sex cases you will--you could have a 7-year-old child who 
is telling you--and their counselor is telling you to put this 
child through a public trial, you will further revictimize this 
child. It is not that you don't have the evidence. It is that 
you don't want to----
    Mr. Scott. Suppose your evidence is that she thinks it is 
the guy, but she is not sure?
    Ms. Devillier. Well, then that would be divulged under 
Brady to the defense, certainly.
    Mr. Scott. And could you get a conviction if the 
defendant--they know they did it? Would you be better off 
getting a plea and being finished with it than rolling the 
dice?
    Ms. Devillier. Judge, pleas are things that are definitely 
necessary, as I'm sure the judges know, to continue the 
criminal justice system to operate. If we had to try every case 
that we had, we would never get them all done. Sex cases 
involving minor victims are the most difficult cases to prove. 
Often your whole case comes down to the word of a child versus 
the word of an adult. Many of the offenses are not reported 
until much later. You rarely, if ever--you have sometimes 
physical evidence, but rarely do you have physical evidence. 
The child is often reluctant to participate. The family is not 
supportive.
    We cannot mandate sex offender registration until we 
convict them. So these are the most difficult cases to get a 
conviction on. So, of course, we are going to want to, as 
morally I'm going to want to, prevent this trial--I don't want 
to revictimize this child by forcing them through a trial, And 
in that circumstance, I'm going to try to get a plea in that 
case. I'm just morally going to do that. And if I--if the 
defendant is saying, I'm not pleading to anything that makes me 
register for 25 years or life, then I've got to find somewhere 
else to go.
    And I would just suggest that if we would just interpret 
the substantial compliance language in the act to mean 
substantial compliance, then, you know, Louisiana could leave 
some of those child sex cases in Tier I that would require 15 
and give me some leverage in that process. But when you tie it 
specifically to the facts of my case, and I can't get around 
those facts because you're going to be looking at the 
underlying facts, it ties my hands as a prosecutor to get the 
plea.
    Mr. Scott. Mr. Allen, you indicated that resources were 
scarce. The registration and notification isn't the only thing 
that you'd like us to be doing. What other initiatives could we 
be enacting, and what kind of priority would they have in front 
of or behind spending this money on SORNA?
    Mr. Allen. Well, first of all, the Adam Walsh Act contains 
a variety of initiatives that have not been funded and have not 
been implemented, including enhanced treatment for juvenile sex 
offenders, community education, and prevention programs and 
initiatives. SORNA is one title of a large bill. So I think 
those kinds of initiatives.
    One of the things, frankly, that we would like to see 
happen is to create greater specialization in this area. For 
example, the Dallas Police Department has what we believe is a 
model national program called SOAP. It is a Sex Offender 
Apprehension Program that aggressively and proactively goes 
after noncompliant offenders who represent the greatest risk. 
There was a provision authorizing funding for model units, 
specialized units in police departments around the country, not 
in the Adam Walsh Act, but in the PROTECT Act of 2003, that has 
not been funded.
    I think the whole area of greater specialization, greater 
focus on this problem--I want to reiterate what I said earlier: 
We do not think that the Adam Walsh Act or SORNA are the be-all 
and the end-all.
    And to your point about the lack of evidence that 
registration has reduced sexual crimes, my response to that 
would be the intent of this is less prevention than regulatory. 
I mean, that what the courts have said. The first sex offender 
registration act was passed in the 1940's in California. So 
that it is not intended to be the answer to the sex offender 
problem, it is intended to try to create a system in this 
country so that we don't send people forth and say, sin no 
more, commit no additional crimes, and there is no support or 
follow-up to keep those offenders from reoffending.
    The systems of supervision in this country, State probation 
and parole, by and large are overwhelmed. It is another area 
where the Congress could provide additional leadership and 
support. We really need to know where these guys are for their 
own protection, to keep them away from employment situations 
where they have easy and legitimate access to children, to keep 
them out of risky behaviors that increase the likelihood of 
reoffense.
    Mr. Scott. What kind of supervision are they under if they 
have just registered?
    Mr. Allen. Well, under the Adam Walsh Act, far greater 
supervision than they get today. In most States, the current 
level of supervision is by mail. Somebody sends in a document 
that says, here is where I am, here is what I'm doing. There is 
no validation or verification in that there is very little 
penalty, very little sanction for the failure to be compliant. 
So these horror stories, like John Couey, happened because 
there is a significant lack of supervision and oversight. 
That's what this bill was intended to do, to deal with the 
system in this country that frankly is smoke and mirrors, in 
which there is registration without accountability, without 
meaningful oversight, without follow-up.
    Mr. Scott. Mr. Shilling, did you want to comment?
    Mr. Shilling. Well, I would just say that in the State of 
Washington, we actually go out and physically verify the 
address of every single sex offender when they have registered. 
And we go out on a regular basis. Sometimes they are the lower 
risk; sometimes it will be 6 months. If they are the higher 
risk, it can be anything from 90 days to once a week. But 
depending on the risk of the offender, we go out and physically 
verify their address. We don't take their word for the fact 
that I'm living here, because sometimes that is a parking lot. 
We want to go see where they are living. We want to see the 
clothes in the house. We want to see that they are getting mail 
there. We want to see that that is exactly where they are 
living.
    Mr. Scott. Time has expired.
    Mr. Gohmert.
    Mr. Gohmert. Thank you.
    I guess to follow up on that, it was the Seattle Times that 
reported that Darrin Sanford, convicted sex offender with a 
history of failing to register as a sex offender, confessed 
recently killing a 13-year-old near Walla Walla, Washington. 
And Washington State does use this risk-assessment approach, 
and apparently he was under the State's highest level of 
supervision. Are you familiar--do you know what went wrong in 
that case? How did he end up with this great supervision to be 
able to go out and reoffend and kill another child like this?
    Mr. Shilling. Sir, he was listed as one of the highest 
risks to reoffend. And because of that, the Washington State 
Department of Corrections put him on electronic monitoring, and 
he committed his crime while he was under electronic 
monitoring, which is one of those things that, you know, we are 
saying, again, if you want to get somebody, if you want to 
commit a crime, it doesn't make any difference whether you have 
electronic monitoring, whether you have an Adam Walsh Act or 
what you have, they are going to do it. So we need to be better 
at figuring out who these higher-risk guys are and giving them 
higher supervision.
    Mr. Gohmert. In Texas, as a part of probation, I could lock 
somebody up no more than 2 years on probation. Is that a 
possibility under the probation in the high risk you're talking 
about?
    Mr. Shilling. We have a law that is called a recent overt 
act. So if they commit an act that appears to be a sex offense, 
we can have them brought into jail and held for civil 
commitment as a sexually violent predator. All we need to show 
is there was a recent overt act.
    Mr. Gohmert. Well, killing a 13-year-old ought to get you 
down the road for that. But, you know, we do have the risk 
assessment versus the offense-based. Mr. Allen, you've 
discussed this to some extent, but what does your national 
center endorse when it comes to offense-based versus risk 
assessment?
    Mr. Allen. Well, the issue is--I mean, there is an offense-
based approach that is written into the Adam Walsh Act. And I 
think one of the big challenges is what is being done in the 
name of risk assessment across the country is wildly varying, 
and the whole question of whether it is based on factual 
information like offense as opposed to in some cases some 
States are trying to do clinical approaches where there are 
personal interviews. There is not a lot of evidence, frankly, 
that indicates that one is better than the other. And in my 
judgment, if the Congress is interested in approaching 
something like this, it should take the same kind of approach 
to create uniformity, because there aren't enough experts and 
clinicians to do it in the optimum----
    Mr. Gohmert. We have had people come in and say they are so 
good at risk assessing, they can tell you basically who would 
be next to offend almost. And I think about the movie with Tom 
Cruise, Minority Report, where, you know, supposedly a 
futuristic society has gotten so good that we just arrest 
people before they commit the offense.
    So I feel like history is a good indicator as to future 
performance, and especially when it involves something as 
heinous as a sexual assault of a child.
    I am sensitive to things like the ex post facto argument. 
It seems like that could be a problem where somebody pleads 
guilty under an agreement that they do not participate, that 
that does create some ex post facto issues, I would think.
    And then I've been made aware of a divorce case where 
apparently sometimes the parents want to get after each other 
and do it through the kids and say, this 12-year-old offended 
with this other 11-year-old, and--so it stirs things up in the 
divorce.
    So I can understand all that and wanting to be careful 
about that, but if somebody is 12 and is alleged to have 
fondled an 11-year-old, is that something that would require 
registration under SORNA?
    Ms. Rogers. No.
    Mr. Gohmert. Okay. Thank you. I appreciate you clarifying 
that. But there is a lot of misinformation out there.
    I know that the Justice Policy Institute did what they call 
a study. Problems in there for me, it estimated Florida's cost 
of implementation be about 29 million, but the State estimated 
its own costs would be about 3 million. It estimated about $200 
million would be coming from the Federal Government when 
actually it is $2.225 billion. And then there is some 
extrapolation that doesn't appear to be accurate. So it just 
seems like there is so much information that is misinformation.
    Like we established at the first, we all want the same 
goal. We don't want another child like Jessica to ever have to 
suffer again. But we have got to get this right, and I 
appreciate my friend from Texas's point that I hate to see this 
delayed too much longer. We may need to fix some things, there 
may be some things that need dealing with, but we really need 
to get people who are registered who are potential threats. And 
if they are not in prison, and they are at high risk because of 
the offense they committed, then people need to know about it 
so they can protect their own children.
    Thank you very much, Mr. Chairman.
    Mr. Scott. I thank the gentleman.
    The gentleman from Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I have a letter here from Susan Russell that outlines what 
happened to her when she was sexually assaulted after she was 
kidnapped and beaten with a tire iron, was left to die in the 
wilderness of Vermont, and was rescued by five teenagers.
    I would like to ask unanimous consent to include this into 
the record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Poe. You know, we talk about the criminal justice 
system and what the purpose is. It would seem to me that it is 
twofold. One is that justice occurs for society, like victims, 
and also that justice occurs in the sense that we do not want 
offenders coming back in the system. Both of those things, I 
think, are the goal of what occurs in the courtroom. We have 
tried everything in this country, and most of the time crime 
issues are State issues only.
    You know, we started out with the stocks, and the public 
floggings, and the branding, and the hangings, and probation 
and jail, then suspended sentences, and therapy and counseling, 
and sending folks to prison. Yet here we are in 2009, in the 
State of Texas, with a large prison population. We know that, 
statistically, if you send somebody to the Texas penitentiary, 
60 percent of them will reoffend with a felony within 3 years, 
will get caught and will go back. So we have to figure out a 
way to keep this cycle from continuing for all of the reasons 
you all have talked about, both from the offender's point of 
view and from the victim's point of view as well.
    It is too bad that Ms. Jackson Lee has left. We sometimes 
disagree on things. That is why she sits on the far left and I 
sit on the far right, but on the issue of we need to get it 
done now----
    Mr. Scott. Actually, you are on the left.
    Mr. Poe. But on the right from them. I have been accused of 
a lot of things, Mr. Chairman, but never of being on the left.
    I think that we do not have the time. People do what is 
expected of them. States do what is expected of them. If they 
are given more time, they will wait until the last minute to do 
it. That is why, when I was a judge and ordered community 
service, I learned real quick if you gave people 100 hours of 
community service, in the last week of their 5-year probations, 
they wanted to do their 100 hours. That cannot get done, so I 
had to space it out and tell them how much they had to do each 
week.
    The same is true of legislation. I think, if we postpone 
the implementing of this, we are going to have the same 
problem.
    I will say that I think society has an interest in 
separating consensual sex among young people versus the kind of 
case that happened to Mark Lunsford's daughter so that when 
society pulls up on the Internet registered sex offenders, they 
know these are not consensual acts by the offender, and that we 
have to do something to clarify that.
    We have picked an arbitrary year of 4. In Texas, it is 3. 
Maybe we ought to reexamine that whole issue about young people 
having consensual sex and then making the offender register for 
life. That is different than a stranger on stranger, an adult 
and minor child.
    I would just ask Mr. Allen: What do you think about that 
and about tweaking the law so that that is very clear?
    Mr. Allen. I think we are in complete agreement, the intent 
of this, and one of the reasons we and others argued for a 
tier-based approach is that we agreed with Ms. Carter in that 
all sex offenders are not alike. All sex offenders do not 
represent the same degree of risk or threat to the community, 
so the intent was to target the most dangerous, the most 
serious offenders. As I said earlier, we are not opposed to 
modifications that make this system work.
    Mr. Poe. I will ask both the prosecutor and the defense 
attorney what they think, just your opinions.
    Ms. Devillier. Yes, sir. Let me point out that Louisiana 
has worked very hard at implementing and in trying to do what 
we thought Congress was asking us to do, and we believed that 
we have achieved substantial compliance with what you were 
asking us to do.
    The problem is that the guidelines are now telling us, no, 
you did not do enough, and you need to do these things. Many 
States are taking issue with these things. So what you are 
asking us to do is to go to our legislature. Without extending 
the deadline, we have issues like the good issue you are 
bringing up now.
    Mr. Poe. Do you agree with what I just said?
    Ms. Devillier. Yes, absolutely.
    What you are asking the States to do is to go forward with 
legislation when we are not sure that legislation is really 
what you want us to do. So that is why we are asking for 
breathing room, for a suspension of the time in order to get 
these issues ironed out with you guys so that we have a full 
understanding of exactly what it is you are asking us to do. 
Thank you.
    Mr. Poe. I guess my real question is: Do any of you think 
that that is something that ought to stay in play? What do you 
think?
    Ms. Borror. No. There definitely needs to be a distinction 
drawn between consensual acts and the violent, serious acts 
that we really want the registry to focus on. There are two 
reasons for that. One, you do not need to have those low-level 
offenders on the Internet registry. I believe that studies are 
showing that that actually increases the risk of recidivism and 
alienates them from their communities.
    Two, doing that dilutes the registry, and it dilutes the 
manpower of the Detective Shilling and of other law 
enforcement. They cannot focus on just those high-risk 
offenders. So we need to have just the high-risk folks on there 
so it is an effective public safety tool, and so that we are 
not making law enforcement chase all of these red herrings.
    Mr. Poe. I think Congress needs to evaluate its priorities. 
Especially money should never get in the way of protecting 
children. So, if that is our obligation, Mr. Chairman, I think 
that we need to resolve that.
    I yield back the remainder of my time.
    Mr. Scott. Thank you.
    I do not think you are going to have much debate about 
that. As a matter of fact, the tiered system was offered as a 
result of an amendment I offered to the original bill that did 
not have any tiered system. The idea, as we just heard, is you 
chase over low-level people who get tripped by, as you have 
suggested, consensual acts amongst teenagers, are getting 
treated the same as the violent criminals, as the older adults 
preying on younger children. They need to be separated.
    Let me ask the panel: I think there is consensus that we 
need to get some kind of extension. There is a difference 
between taking issue with some things and just a simple 
extension. An extension of time, would that be sufficient? Is 
the problem then the regulations rather than the statute?
    Ms. Rogers, do you want to comment? Obviously, we need some 
time here. Would just a straight extension of time fix most of 
the problems?
    Ms. Rogers. Sir, I just need to clarify that the Tier III 
sex offenders are only for violent, forcible offenses. A 
consensual sexual act between a 19-year-old and a 15-year-old 
would not be found in that tier.
    Mr. Scott. A 19-year-old, more than 4 years senior?
    Ms. Rogers. It has to be an aggravated sexual assault, a 
forcible sex crime, to be a Tier III.
    Mr. Scott. More than 4 years senior, consensual sex between 
a 19\1/2\-year-old and just a 15-year-old would not require 
registration; is that what you are saying?
    Ms. Rogers. No.
    Mr. Scott. No, that is not what you are saying, or, yes, 
that is what you are saying?
    Ms. Rogers. It would not require Tier III registration as a 
violent sex offender. It may require registration. It may not. 
If it is charged as a misdemeanor, it may not require 
registration.
    Mr. Scott. Once you get on this list, I mean, you are on 
the list as a sexual offender. What we have heard is that that 
can be counterproductive because once you are on a publicly 
accessible registry, your life is pretty much shot.
    Ms. Rogers. But it also may be a charge that is not even 
included under SORNA and may not require registration. Not 
every sex offense is a registrable offense under SORNA.
    Mr. Scott. Right. We said a 19\1/2\- and a 15-year-old, 
consensual sex. Does a 19-year-old have to register in a 
publicly accessible registry of sex offenders?
    Half the people in the audience are nodding their heads 
``yes.''
    Ms. Rogers. There are a lot of issues that would have to be 
examined. It would depend on how it is charged in that 
particular jurisdiction, if it is covered under SORNA, how the 
case is resolved. What I am telling you is there is a 
discussion that it would be as a violent sexual offender, and I 
just need to clarify this.
    Mr. Scott. However you have to register yourself, you are 
on a sexual offender register for an offense where there is a 
19\1/2\-year-old high school senior and a 15-year-old. Add up 
the months. It is more than 4 years. They get caught. Is that 
something where someone would have to be registered for at 
least a decade?
    Ms. Devillier, do you want to respond?
    Ms. Devillier. I would love to, because Louisiana's statute 
is just that--carnal knowledge. Some States refer to it as 
``statutory rape.'' Ours is that we have been told by the SMART 
office, in our response for substantial compliance, that that 
carnal knowledge statute, which is exactly what you just 
described, requires Tier II--25 years of registration without 
relief.
    Mr. Scott. Well, I guess there are some of those issue we 
might have to deal with.
    Are you asking for a delay, Mr. Allen? How long do we need 
to delay?
    Mr. Allen. I think the answer is dependent on the ability 
of Congress to provide significant funding to help the States 
with compliance. I do not know whether that answer is 1 year or 
2 years. We have heard from a lot of the States. We do not 
pretend to be the SMART office or to have the knowledge----
    Mr. Scott. But listening to people talk about the cost of 
compliance, about $30 million is for California. California is 
about 10 percent of the Nation, so you are talking about 
several hundred million dollars.
    Mr. Allen. Well, first of all, we do not believe that $30 
million number is the right number.
    Mr. Scott. But we also heard about $12 million for 
Virginia. I mean, you are talking the same order of magnitude.
    Mr. Allen. I think there is $1 billion. I mean, the 
ultimate act basically says such funds as are necessary, but in 
the original scoring by the CBO, it talked about, as I recall, 
$1.2 billion over 5 years. That included both building the law 
enforcement capacity and money to help the States comply. I do 
not know whether it is $1 billion or $100 million or what the 
number is, but what we hear from the States--and the issues you 
have heard today we certainly hear, and these are real issues--
but overwhelmingly what we hear from the States is that the 
number one issue is the cost of compliance. It is simply going 
to cost more than the loss of the Byrne grant moneys justifies. 
So I think that is a very significant point.
    Mr. Scott. Part of that calculation is if they spent that 
kind of money, would they reduce the incidence of crime. I 
mean, I do not think there would be much question in the minds 
of States that they would go ahead and spend the money if they 
were convinced that it would have a significant impact on 
crime. If it does not have a significant impact on crime, then 
the question is whether they are going to lose more money or 
are going to gain more money. The discussion ought to be 
whether or not these are reasonable expenditures if your goal 
is to reduce these kinds of crimes.
    Mr. Allen. I think the answer is we do not have a choice 
but to do it. I mean, the reality is what Washington State is 
doing is what every State ought to be doing. They have been 
doing it since 1991. They do follow-up. They do visits. A lot 
of other States are basically determining that the offenders 
are there because of a piece of mail.
    This is a protection initiative, not as much a prevention 
initiative, but I do think it will help reduce crime. We are 
not proposing to do this with other categories of criminal 
offenders. The courts have said this is regulatory, not 
punitive.
    The system in place today in most States--I am not 
suggesting Washington State or in some of the other States 
here--but in most States, the system just does not work, and 
there needs to be a commitment, whether it is with Federal 
dollars or with State dollars, to do meaningful follow-up and 
oversight of this category of offenders. Right now it is not 
being done in most of America.
    Mr. Scott. Are there other responses?
    Ms. Devillier. Mr. Chairman, are you talking about the 
extension now? Is that your question?
    Mr. Scott. Yes.
    Ms. Devillier. What we would suggest is that the reopening 
of the guidelines might instruct the Committee as to how long 
of an extension needed to be had, and we certainly would 
recommend to the Committee that you have some task forces put 
together to instruct you on these issues that the States are 
having.
    Again, we are committed with you to having those 
appropriate sex offenders registered, those who have a risk of 
reoffending, but there are significant issues in here that need 
to be addressed maybe not only with the guidelines, but some 
with the act, like the Ranking Member commented about the age 
limits.
    As to juveniles in this case, the guidelines say that we 
have to register juveniles. Someone gave the example of an 11- 
or a 12-year-old forcibly fondling an 11-year-old who does not 
have to register, but if it is a 14-year-old who does it to 
that 11-year-old, interfamilial, they will have to register. 
These are issues that States are grappling with.
    I would suggest to the Committee that we put together task 
forces and that we delay the implementation until we can get 
these issues resolved posthaste. We are ready, willing and able 
to work with the Committee, and we encourage you to get all 
stakeholders together to help you and us come to something that 
will lead us to some more uniformity, reasonable uniformity, 
about our sex offender policy in this Nation. Thank you.
    Mr. Scott. Thank you.
    Ms. Rogers. Sir, with respect to the implementation by 
tribal jurisdictions, SORNA allowed for two 1-year extensions 
for tribes, and then that they comply within a reasonable time 
period, but there is no definition with respect to what that 
reasonable time period is. So even the SMART office, during my 
tenure, we were at a little bit of a disadvantage in knowing 
what to tell tribes with respect to their deadline for 
implementation.
    Mr. Scott. Thank you.
    If there are no other comments--last comment.
    Mr. Shilling. Mr. Chairman, as I was sitting in Seattle 
yesterday pondering my testimony and waiting for a snowstorm to 
clear, I was watching CNN. I saw President Obama signing the 
stem cell research Executive Order.
    One of the things that he said is: That is why today I am 
also signing a Presidential memorandum directing the White 
House Office of Science and Technology Policy to develop a 
strategy for restoring scientific integrity to government 
decisionmaking to ensure that in this new Administration we 
base our public policies on the soundest science; that we 
appoint scientific advisers based on their credentials and 
experience, not on their politics or ideology; and that we are 
open and honest with the American people about the science 
behind our decisions.
    When I saw that, it was like a light bulb went on. I 
thought: That is the whole reason for this testimony. That is 
the whole reason I am going to Washington, DC, because we are 
not saying get rid of the Adam Walsh Act. To the contrary, 
there are many good things about it, but there are also some 
things that really need some reworking.
    What I am asking you to do is set up a panel of experts to 
help you fix this so that it is workable and so that we can 
protect our children in the best way possible.
    Thank you.
    Mr. Scott. A closing comment or closing questions from 
Judge Gohmert.
    Mr. Gohmert. That is so ironic. You were sitting there, 
suffering the effects of global cooling in the snowstorm, 
listening to the discussion about science being so important in 
the discussion of stem cells, of which there are very varied 
opinions. So that is one of the problems we have here. There 
are very diverse opinions, and it is getting down to what are 
the facts, because opinions are like noses. All of us have one. 
We need to get to the real facts.
    Thank you very much for your testimony.
    Mr. Scott. I would like to thank all of the witnesses for 
their testimony. Members may have additional written questions 
for our witnesses, which we will forward to you and will ask 
you to answer as promptly as you can so that the answers may be 
part of the record.*
---------------------------------------------------------------------------
    *Note: There were no additional questions submitted to the 
witnesses.
---------------------------------------------------------------------------
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    Without objection, the Subcommittee stands adjourned. Thank 
you very much for your testimony.
    [Whereupon, at 4:49 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Louie Gohmert, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
Congress from the State of Texas, and Ranking Member, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you, Mr. Chairman, for your leadership in convening today's 
very important hearing on the Sex Offender Notification and 
Registration Act (SORNA): Barriers to Implementation
    The Sex Offender Registration and Notification Act (SORNA) became 
public law on July 27, 2006, as Title I of the Adam Walsh Act. It 
created a national registry for all sex offenders, and required States 
to participate in and comply with the requirements of SORNA or lose 10% 
of Byrne Grant funding. The deadline for compliance by States is July 
2009, and to date not a single state has been found in compliance. 
SORNA authorizes the AG to give two one-year extensions upon request. 
According to the Department of Justice (DOJ) website, twelve states, 
four Tribes, and Guam have received a one-year extension. My State of 
Texas is not one of them.
    In fact, a New York Times article recently reported that the DOJ 
admitted that as of December 2008, only four states, Arizona, Idaho, 
Louisiana and Ohio, had tried to fully comply with SORNA. In January 
2009, the DOJ denied Ohio's application.
    Timely compliance by any state is doubtful. The Office of the 
Inspector General (OIG) concluded last December that the States ``will 
not fulfill their SORNA requirements by July 2009,'' according to an 
evaluation by the Office of Inspector General, U.S. Department of 
Justice.
    The purpose of this hearing is to explore and gather information 
about problems with implementation of SORNA, to consider whether 
Congress should extend the current deadline of July 2009, as urged by 
many including John Walsh--the father of the namesake of the Adam Walsh 
Act, and to seek alternatives to the present barriers.
    SORNA established a national sex offender registry with the hope 
that sex offenders could not evade detection merely by moving from one 
state to another. It also sought to eliminate discrepancies among state 
registration and notification systems that might hinder public safety.
    Under SORNA, each jurisdiction must change its own State sex 
offender registration and notification system so that it complies with 
detailed requirements set forth in SORNA. The information input into 
each jurisdiction's registry is then merged into a national registry. 
If a jurisdiction fails to comply with SORNA, the jurisdiction loses 
10% of its Byrne Grant funding.
    SORNA requires all individuals convicted of a sex offense to 
register. Sex offense is defined to include all criminal offenses with 
an element of sexual act or sexual contact with another. It also 
includes certain specific crimes against minors, which is defined to 
include offenses against a minor that involve kidnapping; false 
imprisonment; video voyeurism; solicitation to engage in sexual 
conduct; solicitation to practice prostitution; possession, production, 
or distribution of child pornography; and other listed offenses.
    There is an exception to the definition of ``sex offense'' for 
consensual sexual conduct if the victim was an adult (and not under the 
custodial authority of the offender at the time of the offense) or the 
victim was at least 13 years old and the offender was not more than 
four years older than the victim. A foreign conviction also is not 
considered a sex offense under SORNA ``if it was not obtained with 
sufficient safeguards for fundamental fairness and due process for the 
accused under guidelines or regulations'' established by the Attorney 
General.
    There are certain problems with SORNA that many seek to address. 
For example, SORNA requires juvenile sex offenders aged 14 and older to 
register, even when the juvenile was not tried as an adult, if the 
offense is comparable to or more severe than aggravated sexual abuse. 
For juveniles who fall within this category, registration and 
notification requirements are the same as for adults.
    Under SORNA, all sex offenders must report in person. The frequency 
and duration of these reporting requirements vary depending on a three-
tier classification based solely on the offense of conviction. The 
length of the registration periods range from a minimum of 15 years to 
a maximum of life, and the frequency of reporting varies from every 
three months to once every year.
    Under SORNA, offenders must provide their name, social security 
number, home address, name and address of employer, name and address of 
school, license plate number and description of vehicle, and any other 
information required by the Attorney General. Each jurisdiction must 
provide a physical description of the offender; the text of the law 
defining the offender's criminal offense; the criminal history of the 
offender; registration status and outstanding arrest warrants; a 
current photograph; a set of fingerprints and palm prints; a DNA 
sample; a photocopy of a valid driver's license or identification card 
issued by the jurisdiction; and any other information required by the 
Attorney General.
    SORNA does endeavor to protect certain information. For example, 
SORNA prohibits a jurisdiction from publicly revealing the identity of 
the victim, the social security number of the offender, arrests that 
did not result in a conviction, and any other information exempted from 
disclosure by the Attorney General.
    Each jurisdiction is given discretion on whether to publicize the 
name of the employer and school, and any information about a ``tier I'' 
sex offender unless convicted of a specified offense against a minor. A 
``tier 1'' sex offender is an offender that does not fall within the 
definition of the other two tiers. It includes all misdemeanor 
offenses, as well as any other sex offense not otherwise listed.
    All other information must be input into the public registry. Each 
registry also must have search capabilities.
    SORNA imposes stringent notification requirements on jurisdictions. 
After each registration, including both the initial registration and 
each update, the official must notify: (1) the Attorney General; (2)law 
enforcement; (3) school and public housing agencies in each area in 
which the offender lives, works, or attends school, and each 
jurisdiction from or to which a change in residence, work, or schooling 
occurs; (4) any agency responsible for conducting employment-related 
background checks under section 3 of the National Child Protection Act 
of 1993; (5) social service entities responsible for protecting minors 
in the child welfare system; (6) volunteer organizations in which 
contact with minors or other vulnerable individuals might occur; and 
(7) any organization, company, or individual who requests such 
notification pursuant to procedures established by the jurisdiction.
    Finally, SORNA regulations state that it took effect on the date of 
enactment, July 27, 2006, and has retroactive application; it applies 
to all sex offenders, ``including those whose convictions predate 
SORNA's enactment.
    SORNA, with its goal of national uniformity, limits a State's 
discretion on how to establish and run its own State registry. To 
comply with SORNA, States must change their own systems to comply with 
the federal system. The extent of that change depends on each State's 
existing State registry program. As a result of the national ``one-size 
fits all'' approach, however, compliance appears to have become a 
complicated and costly endeavor, and certain States and State 
organizations have voiced concerns about SORNA or portions of SORNA.
    Existing barriers to and complaints about SORNA focus on five main 
areas, which often overlap:

        <bullet>  SORNA's use of an offense-based classification system 
        instead of one based on risk assessments;

        <bullet>  SORNA's mandatory inclusion of certain juveniles as 
        young as 14 years old, even when not tried as adults and merely 
        adjudicated of offenses;

        <bullet>  Mandatory retroactive application of SORNA;

        <bullet>  Legal impediments to implementation; and

        <bullet>  The high cost of implementing SORNA as compared to 
        its benefits and the loss of Bryne Grant monies.

    Again, thank you Mr. Chairman. I yield the remainder of my time.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

   Prepared Statement of Evelyn Fortier, Vice President for Policy, 
             RAINN (Rape, Abuse & Incest National Network)

    Chairman Scott, Ranking Member Gohmert, and members of the 
subcommittee, thank you for inviting me to submit this brief statement 
for the record of today's hearing. RAINN welcomes the opportunity to 
discuss Title I of the Adam Walsh Child Protection and Safety Act of 
2006 (P.L. 109-248), also known as SORNA.
    Founded in 1994, RAINN is a non-profit organization. Its mission is 
to end sexual assault in the United States by improving services to 
victims, educating the public and leading national initiatives to 
prevent sexual assault, and ensure that rapists are brought to justice. 
We carry out this mission in three main ways:

        <bullet>  First, we offer free and confidential crisis 
        intervention services to victims of sexual violence through two 
        national hotlines, in partnership with affiliated rape crisis 
        centers and thousands of hotline volunteers and rape crisis 
        personnel. RAINN created in 1994, and continues to operate--in 
        partnership with over 1,100 rape crisis centers located in 
        every state and the District of Columbia--the National Sexual 
        Assault Hotline, which is accessible to victims as well as 
        their friends and family members around the clock at at 800-
        656-HOPE. Several years ago we also launched the award-winning 
        National Sexual Assault Online Hotline, which is now accessible 
        online 24/7 at www.rainn.org. RAINN's hotline programs are 
        federally authorized under Section 628 of the Adam Walsh Act.

        <bullet>  Second, RAINN engages in public education and 
        outreach by which we reach millions of Americans every year. An 
        example of one such activity is ``RAINN Day,'' our annual 
        college outreach program, which operates on over a thousand of 
        the nation's college campuses each September. RAINN's 
        education/outreach and technical assistance activities also are 
        authorized under Section 628 of the Adam Walsh Act.

        <bullet>  Third and finally, we advocate for national policies 
        and services that will benefit victims of sexual violence, for 
        funding to support such services, and for legislation to ensure 
        that sexual assailants are brought to justice.

    In recent years, the nation's attention has been gripped by a 
series of wrenching, high-profile cases involving innocent young 
children and youths who were targeted by sexual predators in disturbing 
acts of violence. The cases of Adam Walsh, Jacob Wetterling, Jessica 
Lunford, Amie Zyla, and others immediately come to mind--stirring our 
emotions and provoking our outrage. Yet it is important to remember 
that, in addition to these gripping cases, there are hundreds of 
thousands more children, youths, and adults who also will suffer the 
life-shattering effects of a sexual assault.
    According to the U.S. Department of Justice, 1 in 6 women and 1 in 
33 men can expect to become victims of sexual violence during their 
lifetime. In 2007, there were some 248,300 victims of sexual assault. 
Every two minutes, someone in the United States is sexually assaulted.
    With this in mind, we offer the following comments about SORNA:
    A Public Registry Offers Valuable Information to the Public. The 
primary purpose of a public registry is not to reduce recidivism among 
sex offenders, but to inform. (While a public registry such as SORNA 
may have the additional benefit of deterring additional crimes by sex 
offenders [who know they are being tracked by law enforcement], it is 
not solely on this basis that SORNA should be evaluated.) A public 
registry exists for the community (so that parents can check it and 
take reasonable precautions to safeguard their children), and it also 
aids police in their efforts to identify and track convicted offenders 
on their beats. No public registry can offer 100% accurate information 
about sex offenders living in one's community--because many sex crimes 
go unreported and the perpetrators will, therefore, evade detection--
but having access to the information that a public registry provides is 
still of value. This is especially true today, with the proliferation 
of two-career families, who have less time to spend on activities 
outside of work or home (such as neighborhood block parties) which 
could lead to close personal relationships with other community 
members.
    SORNA's Emphasis on Uniformity is Positive. Title I of the Adam 
Walsh Act creates a comprehensive national system for the registration 
of sex offenders, defining three tiers of sex offenders (depending on 
the severity of their crimes). A uniform sex offender registration 
system, if implemented successfully by all jurisdictions, promises to 
eliminate inconsistencies in the various states' laws. Before the 
passage of the Adam Walsh Act, Congress heard about legal loopholes 
that enabled sex offenders to ``forum shop,'' i.e., find jurisdictions 
with less stringent laws to evade sex offender registration and 
notification requirements. Prior to the enactment of the Adam Walsh 
Act, Congress also heard that as many as one in five sexual offenders 
who were required to register would eventually go ``missing'' from the 
system. By encouraging uniformity across jurisdictions, the Adam Walsh 
Act should help prevent sex offenders from evading detection. The Adam 
Walsh Act also provides an avenue for states to share data about sex 
offenders, which is a positive feature of the Act.
    An Objective Offender Classification System Promotes Fairness. 
SORNA classifies offenders into three categories (tier I, tier II, or 
tier III), depending upon the severity of their crimes. For example, 
the tier III offender, considered the most serious of the three 
categories, will have committed an offense that is punishable by more 
than one year in jail and is at least as severe as certain listed 
offenses, and involves kidnapping a minor or occurs after the offender 
becomes a tier II offender. The tier III offender is subject to 
lifetime registration under SORNA.
    Some have argued that classifying offenders using an actuarial risk 
assessment system would be preferable to SORNA's offense-based 
classification system. We note, however, that an offense-based 
classification system is far more objective than a risk-based 
assessment scheme. An objective system may be the best way to achieve 
fairness for all. Also, an objective system may also be far less costly 
to administer than a subjective, risk-based assessment system because 
the objective system does not obligate police departments across the 
nation to hire psychologists or other professionals to individually 
assess every offender's risk after they have already been tried and 
convicted.
    More Research Is Needed Concerning SORNA and Juveniles. SORNA 
requires certain juvenile offenders aged 14 years and above to be on 
state and national registries with adult offenders. Some have argued 
that juveniles tend to have fewer victims and on average commit less 
serious offenses than adults and therefore need not appear on such 
registries. We would urge Congress to tread carefully before amending 
the Adam Walsh Act in this area.
    In revisiting the Adam Walsh Act's treatment of juvenile offenders, 
Congress should consult with experts in child development and seasoned 
child sex crime prosecutors. It would be helpful to know, for example, 
whether juveniles who were tried as adults, or juveniles who have 
committed especially heinous violent offenses, are less likely than 
adults to re-offend? Moreover, is the risk of re-offending the same for 
the fourteen-year-old juvenile offender as it is for juvenile who is 
sixteen or above?
    In considering these and related questions, it also is important to 
remember that the risks of any miscalculation in this area will be 
borne by future victims, as well as their friends and family members.
    Congress Should Make Adequate Funding Available For the Walsh Act's 
Implementation. The goals of the Adam Walsh Act have not been realized, 
and this is due in no small part due to the high financial costs of 
compliance with the Act. In order to achieve substantial compliance 
with the Adam Walsh Act, many jurisdictions must revisit their existing 
sex offender registration and notification systems and make significant 
changes to their existing systems. It is only fair that Congress 
provide the resources authorized under the Act to ensure its successful 
implementation. Providing adequate funding is vitally important to the 
successful implementation of the Adam Walsh Act.
    Congress Should Enact A Short-Term Extension of The Adam Walsh Act. 
Congress set July 27, 2009 as an initial deadline for SORNA compliance, 
but final guidelines for SORNA compliance were not published until July 
1, 2008. Numerous jurisdictions have complained of hurdles--such as a 
lack of funding--that will impede their meeting the July 27, 2009 
deadline. It is our understanding that no jurisdiction has achieved 
substantial compliance with SORNA to date. With this in mind, RAINN 
would not object if Congress were to institute a one-year extension of 
the Adam Walsh Act.
    In closing, thank you for the opportunity to present this 
testimony. We applaud the members of the subcommittee for taking the 
time to examine issues relating to SORNA's implementation.

                                 <all>

</pre></body></html>
